<html>
<title> - TRIBAL LAW AND ORDER ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]






                    TRIBAL LAW AND ORDER ACT OF 2009

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1924

                               __________

                           DECEMBER 10, 2009

                               __________

                           Serial No. 111-134

                               __________

         Printed for the use of the Committee on the Judiciary




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      Available via the World Wide Web: http://judiciary.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
53-945 PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
MIKE QUIGLEY, Illinois               JASON CHAFFETZ, Utah
JUDY CHU, California                 TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
JERROLD NADLER, New York             TED POE, Texas
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               TOM ROONEY, Florida
ANTHONY D. WEINER, New York
DEBBIE WASSERMAN SCHULTZ, Florida
MIKE QUIGLEY, Illinois

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel












                            C O N T E N T S

                              ----------                              

                           DECEMBER 10, 2009

                                                                   Page

                            TEXT OF THE BILL

H.R. 1924, the ``Tribal Law and Order Act of 2009''..............     3

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Daniel E. Lungren, a Representative in Congress 
  from the State of California, and Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................    29

                               WITNESSES

The Honorable Stephanie Herseth Sandlin, a Representative in 
  Congress from the State of South Dakota
  Oral Testimony.................................................    31
  Prepared Statement.............................................    34
The Honorable Thomas J. Perrelli, Associate Attorney General, 
  United States Department of Justice, Washington, DC
  Oral Testimony.................................................    38
  Prepared Statement.............................................    40
Mr. Marcus Levings, Great Plains Area Vice-President, National 
  Congress of American Indians, New Town, ND
  Oral Testimony.................................................    66
  Prepared Statement.............................................    68
Ms. Tova Indritz, Chair, National Association of Criminal Defense 
  Lawyers, Native American Justice Committee, Albuquerque, NM
  Oral Testimony.................................................    75
  Prepared Statement.............................................    78
Mr. Scott Burns, Executive Director, National District Attorneys 
  Association, Alexandria, VA
  Oral Testimony.................................................   120
  Prepared Statement.............................................   123
Ms. Barbara L. Creel, Assistant Professor of Law, Southwest 
  Indian Law Clinic, University of New Mexico School of Law, 
  Albuquerque, NM
  Oral Testimony.................................................   127
  Prepared Statement.............................................   129

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Tom Rooney, a Representative 
  in Congress from the State of Florida, and Member, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................    61

                                APPENDIX

Material Submitted for the Hearing Record........................   139

                        OFFICIAL HEARING RECORD
      Material Submitted for the Hearing Record but not Reprinted

Submission entitled Maze of Injustice, The failure to protect 
    indigenous women from sexual violence in the USA, Amnesty 
    International. This document is available at the Subcommittee and 
    can also be accessed at:

    http://www.amnestyusa.org/women/maze/report.pdf

 
                    TRIBAL LAW AND ORDER ACT OF 2009

                              ----------                              


                      THURSDAY, DECEMBER 10, 2009

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
room 2237, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Scott, Quigley, Gohmert, 
Goodlatte, Lungren, and Rooney.
    Staff present: (Majority) Karen Wilkinson, (Fellow) Federal 
Public Defender Office Detailee; Veronica Eligan, Professional 
Staff Member; Sam Sokol, Counsel; Elliott Mincberg, Counsel; 
(Minority) Caroline Lynch, Counsel; and Kimani Little, Counsel.
    Mr. Scott. Subcommittee will now come to order. I am 
pleased to welcome you today to the hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security on H.R. 
1924, the ``Tribal Law and Order Act of 2009,'' sponsored by 
the gentlelady from South Dakota, Ms. Herseth Sandlin.
    The general issue before us today is how to best prosecute 
crime in Indian country. I don't believe there is any dispute 
that violent crime in Indian country is unacceptable. Violent 
crime on reservations is unfortunately two, three, or four 
times that of the national average.
    Amnesty International tells us that one in three American 
Indian and Alaskan Native women will be raped in their 
lifetime. This is a rate two and a half times the national 
average.
    The risk of being murdered is twice as high for an American 
Indian living on a reservation as for the average American 
living off a reservation. Amphetamine has made its way to the 
reservations and, as in other areas, is destroying lives and 
communities.
    In spite of these excessive high crime rates, law 
enforcement in Indian country remains underfunded, 
undertrained, and understaffed. Prosecution of crime in Indian 
country is also below the national average.
    The Department of Justice reported earlier this year that 
the number of cases declined for prosecution on Indian country 
by the Federal Government, referred to as the declination rate, 
was 52.2 percent for fiscal year 2007 and 47 percent for fiscal 
year 2008. The rate for crimes reported off of Indian country 
is at 20.7 percent for fiscal 2007 and 15.6 percent for fiscal 
2008. While these figures are not directly comparable and do 
not tell the entire story, there indicate that there is a 
serious problem with crime control in Indian country and we 
need to make sure that the problems are addressed.
    In addition to inadequate resources in which to investigate 
and prosecute serious crimes in Indian country there is also a 
dearth of evidence-based prevention and intervention tools, 
which we now know are effective in reducing crime before it 
occurs. And so it is important that we consider evidence-based 
crime prevention, intervention, substance abuse treatment, and 
reentry programs.
    And great Indian country is vast, covering 56 million 
acres. In remote, scarcely populated areas such as these where 
responding to a crime may take hours of travel even under the 
best of circumstances, crime prevention is especially 
important.
    The unique status of Indian tribes as an independent 
sovereigns together with the trust and responsibility of the 
United States to tribes, however, presents issues not normally 
faced by law enforcement. These issues affect core decisions, 
such as who is responsible for investigating and prosecuting a 
crime.
    On Indian land a different law enforcement agency--tribal, 
State, and/or Federal--will have sole, primary, or shared 
responsibility for investigating a crime depending on tribal 
membership of the suspect and victim, the location of the 
crime, and the type of crime. By the time these jurisdictional 
questions are answered critical evidence may be lost forever.
    Similarly, those who prosecute a case--tribal, State, or 
Federal Government--also depends on whether the suspect and 
victim are members of a tribe, whether the crime occurred on 
Indian country, and the type of crime. In most reservations 
serious felony crimes in Indian country that involve suspects 
and victims who are tribal members will be prosecuted in 
Federal courts under the Major Crimes Act.
    In six States, however, known as Public Law 280 states, the 
State is responsible for prosecuting these crimes. Public Law 
280 states are California, Alaska, Minnesota, Nebraska, Oregon, 
and Wisconsin.
    H.R. 1924 expands Federal jurisdiction in Public Law 280 
states so that tribal, State, and Federal Governments will now 
share concurrent jurisdiction over the same major crimes in 
Indian country. Other than this change, the bill does not alter 
existing jurisdiction over Indian country crime.
    The bill also increases tribal sentencing authority from 1 
year per offense to 3 years of incarceration for each offense. 
The intent of this provision is to increase tribal authority to 
prosecute and incarcerate more serious criminals, but it also 
raises significant concerns for the individual rights of tribal 
members because the Federal Constitution does not apply to 
tribal prosecutions. And this is true even though the tribal 
defendant is also a U.S. citizen.
    One such concern is that there is no guarantee to right to 
counsel in tribal court. Some tribes may voluntarily offer 
legal representation to interested defendants, but others do 
not. Those that provide representation may appoint lawyers 
while other tribes merely appoint advocates who are neither 
lawyers nor legally trained.
    The bill expands concurrent jurisdiction in PL 280 states 
and also fails to prioritize these possible investigations and 
prosecutions. So the question remains as to who should 
investigate and prosecute the case.
    Should the Federal Government defer to the State 
governments and only intervene when the State asks for 
assistance or fails to prosecute, as in the hate crimes bill? 
Should tribal governments also have a say in who investigates 
the case and whether the case is prosecuted in State or Federal 
court?
    This increased concurrent jurisdiction coupled with no 
guidance would seem to have the potential to create more 
confusion, resulting in fewer, not more, prosecutions. So I 
look forward to hearing from our witnesses about this issue.
    I raise these concerns with the hope that our witnesses can 
help us draft a bill that will reduce the unacceptably high 
crime rate that currently plagues many Indian reservations 
while respecting the individual rights of tribal defendants. 
Tribal Law and Order Act of 2009 is a comprehensive bill that 
incorporates a number of different approaches to prosecuting 
crime. As with all crime bills, we need to examine the existing 
problems of reservation crime to ensure to the best that we can 
that the bill's provisions address those specific problems and 
avoid unintended consequences.
    So I look forward to hearing from our witnesses on these 
issues.
    And finally, I understand that the Senate Committee on 
Indian Affairs has proposed amendments to the Senate companion 
bill to H.R. 1924 that seek to address some of the concerns 
that have been raised with this bill. So we intend to look 
closely at these amendments.
    [The text of the bill, H.R. 1924, follows:]

<bullet>HR 1924 IH  ___________________________________________________
                           <greek-l>I40 deg.
                                                                      I
111th CONGRESS
    1st Session

                                H. R. 1924

To amend the Indian Law Enforcement Reform Act, the Indian Tribal 
    Justice Act, the Indian Tribal Justice Technical and Legal 
    Assistance Act of 2000, and the Omnibus Crime Control and Safe 
    Streets Act of 1968 to improve the prosecution of, and response to, 
    crimes in Indian country, and for other purposes.
                               __________
                    IN THE HOUSE OF REPRESENTATIVES
                             April 2, 2009
Ms. Herseth Sandlin (for herself, Mr. Kildee, and Mr. Grijalva) 
    introduced the following bill; which was referred to the Committee 
    on the Judiciary, and in addition to the Committees on Natural 
    Resources, Energy and Commerce, and Education and Labor, for a 
    period to be subsequently determined by the Speaker, in each case 
    for consideration of such provisions as fall within the 
    jurisdiction of the committee concerned
                               __________

                                 A BILL

To amend the Indian Law Enforcement Reform Act, the Indian Tribal 
    Justice Act, the Indian Tribal Justice Technical and Legal 
    Assistance Act of 2000, and the Omnibus Crime Control and Safe 
    Streets Act of 1968 to improve the prosecution of, and response to, 
    crimes in Indian country, and for other purposes.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE; TABLE OF CONTENTS.

    (a) Short Title.--This Act may be cited as the ``Tribal Law and 
Order Act of 2009''.
    (b) Table of Contents.--The table of contents of this Act is as 
follows:

    Sec. 1. Short title; table of contents.
    Sec. 2. Findings; purposes.
    Sec. 3. Definitions.
    Sec. 4. Severability clause.

            TITLE I--FEDERAL ACCOUNTABILITY AND COORDINATION

    Sec. 101. Office of Justice Services responsibilities.
    Sec. 102. Declination reports.
    Sec. 103. Prosecution of crimes in Indian country.
    Sec. 104. Administration.

            TITLE II--STATE ACCOUNTABILITY AND COORDINATION

    Sec. 201. State criminal jurisdiction and resources.
    Sec. 202. Incentives for State, tribal, and local law enforcement 
cooperation.

   TITLE III--EMPOWERING TRIBAL LAW ENFORCEMENT AGENCIES AND TRIBAL 
                              GOVERNMENTS

    Sec. 301. Tribal police officers.
    Sec. 302. Drug enforcement in Indian country.
    Sec. 303. Access to national criminal information databases.
    Sec. 304. Tribal court sentencing authority.
    Sec. 305. Indian Law and Order Commission.

                    TITLE IV--TRIBAL JUSTICE SYSTEMS

    Sec. 401. Indian alcohol and substance abuse.
    Sec. 402. Indian tribal justice; technical and legal assistance.
    Sec. 403. Tribal resources grant program.
    Sec. 404. Tribal jails program.
    Sec. 405. Tribal probation office liaison program.
    Sec. 406. Tribal youth program.

 TITLE V--INDIAN COUNTRY CRIME DATA COLLECTION AND INFORMATION SHARING

    Sec. 501. Tracking of crimes committed in Indian country.
    Sec. 502. Grants to improve tribal data collection systems.
    Sec. 503. Criminal history record improvement program.

    TITLE VI--DOMESTIC VIOLENCE AND SEXUAL ASSAULT PROSECUTION AND 
                               PREVENTION

    Sec. 601. Prisoner release and reentry.
    Sec. 602. Domestic and sexual violent offense training.
    Sec. 603. Testimony by Federal employees in cases of rape and 
sexual assault.
    Sec. 604. Coordination of Federal agencies.
    Sec. 605. Sexual assault protocol.

SEC. 2. FINDINGS; PURPOSES.

    (a) Findings.--Congress finds that--
            (1) the United States has distinct legal, treaty, and trust 
        obligations to provide for the public safety of tribal 
        communities;
            (2) several States have been delegated or have accepted 
        responsibility to provide for the public safety of tribal 
        communities within the borders of the States;
            (3) Congress and the President have acknowledged that--
                    (A) tribal law enforcement officers are often the 
                first responders to crimes on Indian reservations; and
                    (B) tribal justice systems are ultimately the most 
                appropriate institutions for maintaining law and order 
                in tribal communities;
            (4) less than 3,000 tribal and Federal law enforcement 
        officers patrol more than 56,000,000 acres of Indian country, 
        which reflects less than \1/2\ of the law enforcement presence 
        in comparable rural communities nationwide;
            (5) on many Indian reservations, law enforcement officers 
        respond to distress or emergency calls without backup and 
        travel to remote locations without adequate radio communication 
        or access to national crime information database systems;
            (6) the majority of tribal detention facilities were 
        constructed decades before the date of enactment of this Act 
        and must be or will soon need to be replaced, creating a 
        multibillion-dollar backlog in facility needs;
            (7) a number of Indian country offenders face no 
        consequences for minor crimes, and many such offenders are 
        released due to severe overcrowding in existing detention 
        facilities;
            (8) tribal courts--
                    (A) are the primary arbiters of criminal and civil 
                justice for actions arising in Indian country; but
                    (B) have been historically underfunded;
            (9) tribal courts have no criminal jurisdiction over non-
        Indian persons, and the sentencing authority of tribal courts 
        is limited to sentences of not more than 1 year of imprisonment 
        for Indian offenders, forcing tribal communities to rely solely 
        on the Federal Government and certain State governments for the 
        prosecution of--
                    (A) misdemeanors committed by non-Indian persons; 
                and
                    (B) all felony crimes in Indian country;
            (10) a significant percentage of cases referred to Federal 
        agencies for prosecution of crimes allegedly occurring in 
        tribal communities are declined to be prosecuted;
            (11) the complicated jurisdictional scheme that exists in 
        Indian country--
                    (A) has a significant negative impact on the 
                ability to provide public safety to Indian communities; 
                and
                    (B) has been increasingly exploited by criminals;
            (12) the violent crime rate in Indian country is--
                    (A) nearly twice the national average; and
                    (B) more than 20 times the national average on some 
                Indian reservations;
            (13)(A) domestic and sexual violence against Indian and 
        Alaska Native women has reached epidemic proportions;
            (B) 34 percent of Indian and Alaska Native women will be 
        raped in their lifetimes; and
            (C) 39 percent of Indian and Alaska Native women will be 
        subject to domestic violence;
            (14) the lack of police presence and resources in Indian 
        country has resulted in significant delays in responding to 
        victims' calls for assistance, which adversely affects the 
        collection of evidence needed to prosecute crimes, particularly 
        crimes of domestic and sexual violence;
            (15) alcohol and drug abuse plays a role in more than 80 
        percent of crimes committed in tribal communities;
            (16) the rate of methamphetamine addiction in tribal 
        communities is 3 times the national average;
            (17) the Department of Justice has reported that drug 
        organizations have increasingly targeted Indian country to 
        produce and distribute methamphetamine, citing the limited law 
        enforcement presence and jurisdictional confusion as reasons 
        for the increased activity;
            (18) tribal communities face significant increases in 
        instances of domestic violence, burglary, assault, and child 
        abuse as a direct result of increased methamphetamine use on 
        Indian reservations;
            (19)(A) criminal jurisdiction in Indian country is complex, 
        and responsibility for Indian country law enforcement is shared 
        among Federal, tribal, and State authorities; and
            (B) that complexity requires a high degree of commitment 
        and cooperation from Federal and State officials that can be 
        difficult to establish;
            (20) agreements for cooperation among certified tribal and 
        State law enforcement officers have proven to improve law 
        enforcement in tribal communities;
            (21) consistent communication among tribal, Federal, and 
        State law enforcement agencies has proven to increase public 
        safety and justice in tribal and nearby communities; and
            (22) crime data is a fundamental tool of law enforcement, 
        but for decades the Bureau of Indian Affairs and the Department 
        of Justice have not been able to coordinate or consistently 
        report crime and prosecution rates in tribal communities.
    (b) Purposes.--The purposes of this Act are--
            (1) to clarify the responsibilities of Federal, State, 
        tribal, and local governments with respect to crimes committed 
        in tribal communities;
            (2) to increase coordination and communication among 
        Federal, State, tribal, and local law enforcement agencies;
            (3) to empower tribal governments with the authority, 
        resources, and information necessary to safely and effectively 
        provide for the safety of the public in tribal communities;
            (4) to reduce the prevalence of violent crime in tribal 
        communities and to combat violence against Indian and Alaska 
        Native women;
            (5) to address and prevent drug trafficking and reduce 
        rates of alcohol and drug addiction in Indian country; and
            (6) to increase and standardize the collection of criminal 
        data and the sharing of criminal history information among 
        Federal, State, and tribal officials responsible for responding 
        to and investigating crimes in tribal communities.

SEC. 3. DEFINITIONS.

    (a) In General.--In this Act:
            (1) Indian community.--The term ``Indian community'' means 
        a community of a federally recognized Indian tribe.
            (2) Indian country.--The term ``Indian country'' has the 
        meaning given the term in section 1151 of title 18, United 
        States Code.
            (3) Indian tribe.--The term ``Indian tribe'' has the 
        meaning given the term in section 102 of the Federally 
        Recognized Indian Tribe List Act of 1994 (25 U.S.C. 479a).
            (4) Secretary.--The term ``Secretary'' means the Secretary 
        of the Interior.
            (5) Tribal government.--The term ``tribal government'' 
        means the governing body of an Indian tribe.
    (b) Indian Law Enforcement Reform Act.--Section 2 of the Indian Law 
Enforcement Reform Act (25 U.S.C. 2801) is amended by adding at the end 
the following:
            ``(10) Tribal justice official.--The term `tribal justice 
        official' means--
                    ``(A) a tribal prosecutor;
                    ``(B) a tribal law enforcement officer; or
                    ``(C) any other person responsible for 
                investigating or prosecuting an alleged criminal 
                offense in tribal court.''.

SEC. 4. SEVERABILITY CLAUSE.

    If any provision of this Act, an amendment made this Act, or the 
application of such provision or amendment to any person or 
circumstance is held to be unconstitutional, the remainder of this Act, 
the amendments made by this Act, and the application of the provisions 
of such to any person or circumstances shall not be affected thereby.

            TITLE I--FEDERAL ACCOUNTABILITY AND COORDINATION

SEC. 101. OFFICE OF JUSTICE SERVICES RESPONSIBILITIES.

    (a) Definitions.--Section 2 of the Indian Law Enforcement Reform 
Act (25 U.S.C. 2801) is amended--
            (1) by striking paragraph (8);
            (2) by redesignating paragraphs (1) through (7) as 
        paragraphs (2) through (8), respectively;
            (3) by redesignating paragraph (9) as paragraph (1) and 
        moving the paragraphs so as to appear in numerical order; and
            (4) in paragraph (1) (as redesignated by paragraph (3)), by 
        striking ``Division of Law Enforcement Services'' and inserting 
        ``Office of Justice Services''.
    (b) Additional Responsibilities of Office.--Section 3 of the Indian 
Law Enforcement Reform Act (25 U.S.C. 2802) is amended--
            (1) in subsection (b), by striking ``(b) There is hereby 
        established within the Bureau a Division of Law Enforcement 
        Services which'' and inserting the following:
    ``(b) Office of Justice Services.--There is established in the 
Bureau an office, to be known as the `Office of Justice Services', 
that'';
            (2) in subsection (c)--
                    (A) in the matter preceding paragraph (1), by 
                striking ``Division of Law Enforcement Services'' and 
                inserting ``Office of Justice Services'';
                    (B) in paragraph (2), by inserting ``and, with the 
                consent of the Indian tribe, tribal criminal laws, 
                including testifying in tribal court'' before the 
                semicolon at the end;
                    (C) in paragraph (8), by striking ``and'' at the 
                end;
                    (D) in paragraph (9), by striking the period at the 
                end and inserting a semicolon; and
                    (E) by adding at the end the following:
            ``(10) the development and provision of dispatch and 
        emergency and E-911 services;
            ``(11) communicating with tribal leaders, tribal community 
        and victims' advocates, tribal justice officials, and residents 
        of Indian land on a regular basis regarding public safety and 
        justice concerns facing tribal communities;
            ``(12) conducting meaningful and timely consultation with 
        tribal leaders and tribal justice officials in the development 
        of regulatory policies and other actions that affect public 
        safety and justice in Indian country;
            ``(13) providing technical assistance and training to 
        tribal law enforcement officials to gain access and input 
        authority to utilize the National Criminal Information Center 
        and other national crime information databases pursuant to 
        section 534 of title 28, United States Code;
            ``(14) in coordination with the Attorney General pursuant 
        to subsection (g) of section 302 of the Omnibus Crime Control 
        and Safe Streets Act of 1968 (42 U.S.C. 3732), collecting, 
        analyzing, and reporting data regarding Indian country crimes 
        on an annual basis;
            ``(15) submitting to the Committee on Indian Affairs of the 
        Senate and the Committee on Natural Resources of the House of 
        Representatives, for each fiscal year, a detailed spending 
        report regarding tribal public safety and justice programs that 
        includes--
                    ``(A)(i) the number of full-time employees of the 
                Bureau and tribal government who serve as--
                            ``(I) criminal investigators;
                            ``(II) uniform police;
                            ``(III) police and emergency dispatchers;
                            ``(IV) detention officers;
                            ``(V) executive personnel, including 
                        special agents in charge, and directors and 
                        deputies of various offices in the Office of 
                        Justice Services; or
                            ``(VI) tribal court judges, prosecutors, 
                        public defenders, or related staff; and
                    ``(ii) the amount of appropriations obligated for 
                each category described in clause (i) for each fiscal 
                year;
                    ``(B) a list of amounts dedicated to law 
                enforcement and corrections, vehicles, related 
                transportation costs, equipment, inmate transportation 
                costs, inmate transfer costs, replacement, improvement, 
                and repair of facilities, personnel transfers, 
                detailees and costs related to their details, emergency 
                events, public safety and justice communications and 
                technology costs, and tribal court personnel, 
                facilities, and related program costs;
                    ``(C) a list of the unmet staffing needs of law 
                enforcement, corrections, and court personnel at tribal 
                and Bureau of Indian Affairs justice agencies, the 
                replacement and repair needs of tribal and Bureau 
                corrections facilities, needs for tribal police and 
                court facilities, and public safety and emergency 
                communications and technology needs; and
                    ``(D) the formula, priority list or other 
                methodology used to determine the method of 
                disbursement of funds for the public safety and justice 
                programs administered by the Office of Justice 
                Services;
            ``(16) submitting to the Committee on Indian Affairs of the 
        Senate and the Committee on Natural Resources of the House of 
        Representatives, for each fiscal year, a report summarizing the 
        technical assistance, training, and other support provided to 
        tribal law enforcement and corrections agencies that operate 
        relevant programs pursuant to self-determination contracts or 
        self-governance compacts with the Bureau of Indian Affairs; and
            ``(17) promulgating regulations to carry out this Act, and 
        routinely reviewing and updating, as necessary, the regulations 
        contained in subchapter B of title 25, Code of Federal 
        Regulations (or successor regulations).'';
            (3) in subsection (d)--
                    (A) in paragraph (1), by striking ``Division of Law 
                Enforcement Services'' and inserting ``Office of 
                Justice Services'';
                    (B) in paragraph (3)--
                            (i) by striking ``regulations which shall 
                        establish'' and inserting ``regulations, which 
                        shall--
                    ``(A) establish'';
                            (ii) by striking ``reservation.'' and 
                        inserting ``reservation; but''; and
                            (iii) by adding at the end the following:
                    ``(B) support the enforcement of tribal laws and 
                investigation of offenses against tribal criminal 
                laws.''; and
                    (C) in paragraph (4)(i), in the first sentence, by 
                striking ``Division'' and inserting ``Office of Justice 
                Services'';
            (4) in subsection (e), by striking ``Division of Law 
        Enforcement Services'' each place it appears and inserting 
        ``Office of Justice Services''; and
            (5) by adding at the end the following:
    ``(f) Long-Term Plan for Tribal Detention Programs.--Not later than 
1 year after the date of enactment of this subsection, the Secretary, 
acting through the Bureau, in coordination with the Department of 
Justice and in consultation with tribal leaders, tribal law enforcement 
officers, and tribal corrections officials, shall submit to Congress a 
long-term plan to address incarceration in Indian country, including a 
description of--
            ``(1) proposed activities for the construction of detention 
        facilities (including regional facilities) on Indian land;
            ``(2) proposed activities for the construction of 
        additional Federal detention facilities on Indian land;
            ``(3) proposed activities for contracting with State and 
        local detention centers, upon approval of affected tribal 
        governments;
            ``(4) proposed activities for alternatives to 
        incarceration, developed in cooperation with tribal court 
        systems; and
            ``(5) other such alternatives to incarceration as the 
        Secretary, in coordination with the Bureau and in consultation 
        with tribal representatives, determines to be necessary.
    ``(g) Law Enforcement Personnel of Bureau and Indian Tribes.--
            ``(1) Report.--Not later than 60 days after the date of 
        enactment of this subsection, the Secretary shall submit to the 
        Committee on Indian Affairs of the Senate and the Committee on 
        Natural Resources of the House of Representatives a report 
        regarding vacancies in law enforcement personnel of Bureau and 
        Indian tribes.
            ``(2) Long-term plan.--Not later than 1 year after the date 
        of enactment of this subsection, the Secretary shall submit to 
        the Committee on Indian Affairs of the Senate and the Committee 
        on Natural Resources of the House of Representatives a long-
        term plan to address law enforcement personnel needs in Indian 
        country.''.
    (c) Law Enforcement Authority.--Section 4 of the Indian Law 
Enforcement Reform Act (25 U.S.C. 2803) is amended--
            (1) in paragraph (2)(A), by striking ``), or'' and 
        inserting ``or offenses committed on Federal property processed 
        by the Central Violations Bureau); or''; and
            (2) in paragraph (3), by striking subparagraphs (A) through 
        (C) and inserting the following:
                    ``(A) the offense is committed in the presence of 
                the employee; or
                    ``(B) the offense is a Federal crime and the 
                employee has reasonable grounds to believe that the 
                person to be arrested has committed, or is committing, 
                the crime;''.

SEC. 102. DECLINATION REPORTS.

    Section 10 of the Indian Law Enforcement Reform Act (25 U.S.C. 
2809) is amended by striking subsections (a) through (d) and inserting 
the following:
    ``(a) Reports.--
            ``(1) Law enforcement officials.--Subject to subsection 
        (d), if a law enforcement officer or employee of any Federal 
        department or agency declines to initiate an investigation of 
        an alleged violation of Federal law in Indian country, or 
        terminates such an investigation without referral for 
        prosecution, the officer or employee shall--
                    ``(A) submit to the appropriate tribal justice 
                officials evidence, including related reports, relevant 
                to the case that would advance prosecution of the case 
                in a tribal court; and
                    ``(B) submit to the Office of Indian Country Crime 
                relevant information regarding all declinations of 
                alleged violations of Federal law in Indian country, 
                including--
                            ``(i) the type of crime alleged;
                            ``(ii) the status of the accused as an 
                        Indian or non-Indian;
                            ``(iii) the status of the victim as an 
                        Indian; and
                            ``(iv) the reason for declining to 
                        initiate, open, or terminate the investigation.
            ``(2) United states attorneys.--Subject to subsection (d), 
        if a United States Attorney declines to prosecute, or acts to 
        terminate prosecution of, an alleged violation of Federal law 
        in Indian country, the United States Attorney shall--
                    ``(A) submit to the appropriate tribal justice 
                official, sufficiently in advance of the tribal statute 
                of limitations, evidence relevant to the case to permit 
                the tribal prosecutor to pursue the case in tribal 
                court; and
                    ``(B) submit to the Office of Indian Country Crime 
                and the appropriate tribal justice official relevant 
                information regarding all declinations of alleged 
                violations of Federal law in Indian country, 
                including--
                            ``(i) the type of crime alleged;
                            ``(ii) the status of the accused as an 
                        Indian or non-Indian;
                            ``(iii) the status of the victim as an 
                        Indian; and
                            ``(iv) the reason for the determination to 
                        decline or terminate the prosecution.
    ``(b) Maintenance of Records.--
            ``(1) In general.--The Director of the Office of Indian 
        Country Crime shall establish and maintain a compilation of 
        information received under paragraph (1) or (2) of subsection 
        (a) relating to declinations.
            ``(2) Availability to congress.--Each compilation under 
        paragraph (1) shall be made available to Congress on an annual 
        basis.
    ``(c) Inclusion of Case Files.--A report submitted to the 
appropriate tribal justice officials under paragraph (1) or (2) of 
subsection (a) may include the case file, including evidence collected 
and statements taken that could support an investigation or prosecution 
by the appropriate tribal justice officials.
    ``(d) Effect of Section.--
            ``(1) In general.--Nothing in this section requires any 
        Federal agency or official to transfer or disclose any 
        confidential or privileged communication, information, or 
        source to an official of any Indian tribe.
            ``(2) Federal rules of criminal procedure.--Rule 6 of the 
        Federal Rules of Criminal Procedure shall apply to this 
        section.
            ``(3) Regulations.--Each Federal agency required to submit 
        a report pursuant to this section shall adopt, by regulation, 
        standards for the protection of confidential or privileged 
        communications, information, and sources under paragraph 
        (1).''.

SEC. 103. PROSECUTION OF CRIMES IN INDIAN COUNTRY.

    (a) Appointment of Special Prosecutors.--Section 543 of title 28, 
United States Code, is amended--
            (1) in subsection (a), by inserting before the period at 
        the end the following: ``, including the appointment of 
        qualified tribal prosecutors and other qualified attorneys to 
        assist in prosecuting Federal offenses committed in Indian 
        country''; and
            (2) by adding at the end the following:
    ``(c) Sense of Congress Regarding Consultation.--It is the sense of 
Congress that, in appointing attorneys under this section to serve as 
special prosecutors in Indian country, the Attorney General should 
consult with tribal justice officials of each Indian tribe that would 
be affected by the appointment.''.
    (b) Tribal Liaisons.--The Indian Law Enforcement Reform Act (25 
U.S.C. 2801 et seq.) is amended by adding at the end the following:

``SEC. 11. ASSISTANT UNITED STATES ATTORNEY TRIBAL LIAISONS.

    ``(a) Appointment.--Each United States Attorney the district of 
which includes Indian country shall appoint not less than 1 assistant 
United States Attorney to serve as a tribal liaison for the district.
    ``(b) Duties.--A tribal liaison shall be responsible for the 
following activities in the district of the tribal liaison:
            ``(1) Coordinating the prosecution of Federal crimes that 
        occur in Indian country.
            ``(2) Developing multidisciplinary teams to combat child 
        abuse and domestic and sexual violence offenses against 
        Indians.
            ``(3) Consulting and coordinating with tribal justice 
        officials and victims' advocates to address any backlog in the 
        prosecution of major crimes in Indian country in the district.
            ``(4) Developing working relationships and maintaining 
        communication with tribal leaders, tribal community and 
        victims' advocates, and tribal justice officials to gather 
        information from, and share appropriate information with, 
        tribal justice officials.
            ``(5) Coordinating with tribal prosecutors in cases in 
        which a tribal government has concurrent jurisdiction over an 
        alleged crime, in advance of the expiration of any applicable 
        statute of limitation.
            ``(6) Providing technical assistance and training regarding 
        evidence gathering techniques to tribal justice officials and 
        other individuals and entities that are instrumental to 
        responding to Indian country crimes.
            ``(7) Conducting training sessions and seminars to certify 
        special law enforcement commissions to tribal justice officials 
        and other individuals and entities responsible for responding 
        to Indian country crimes.
            ``(8) Coordinating with the Office of Indian Country Crime, 
        as necessary.
            ``(9) Conducting such other activities to address and 
        prevent violent crime in Indian country as the applicable 
        United States Attorney determines to be appropriate.
    ``(c) Sense of Congress Regarding Evaluations of Tribal Liaisons.--
            ``(1) Findings.--Congress finds that--
                    ``(A) many tribal communities rely solely on United 
                States Attorneys offices to prosecute felony and 
                misdemeanor crimes occurring on Indian land; and
                    ``(B) tribal liaisons have dual obligations of--
                            ``(i) coordinating prosecutions of Indian 
                        country crime; and
                            ``(ii) developing relationships with tribal 
                        communities and serving as a link between 
                        tribal communities and the Federal justice 
                        process.
            ``(2) Sense of congress.--It is the sense of Congress that 
        the Attorney General should--
                    ``(A) take all appropriate actions to encourage the 
                aggressive prosecution of all crimes committed in 
                Indian country; and
                    ``(B) when appropriate, take into consideration the 
                dual responsibilities of tribal liaisons described in 
                paragraph (1)(B) in evaluating the performance of the 
                tribal liaisons.
    ``(d) Enhanced Prosecution of Minor Crimes.--
            ``(1) In general.--Each United States Attorney serving a 
        district that includes Indian country is authorized and 
        encouraged--
                    ``(A) to appoint Special Assistant United States 
                Attorneys pursuant to section 543(a) of title 28, 
                United States Code, to prosecute crimes in Indian 
                country as necessary to improve the administration of 
                justice, and particularly when--
                            ``(i) the crime rate exceeds the national 
                        average crime rate; or
                            ``(ii) the rate at which criminal offenses 
                        are declined to be prosecuted exceeds the 
                        national average declination rate;
                    ``(B) to coordinate with applicable United States 
                magistrate and district courts--
                            ``(i) to ensure the provision of docket 
                        time for prosecutions of Indian country crimes; 
                        and
                            ``(ii) to hold trials and other proceedings 
                        in Indian country, as appropriate;
                    ``(C) to provide to appointed Special Assistant 
                United States Attorneys appropriate training, 
                supervision, and staff support; and
                    ``(D) if an agreement is entered into with a 
                Federal court pursuant to paragraph (2), to provide 
                technical and other assistance to tribal governments 
                and tribal court systems to ensure the success of the 
                program under this subsection.
            ``(2) Sense of congress regarding consultation.--It is the 
        sense of Congress that, in appointing Special Assistant United 
        States Attorneys under this subsection, a United States 
        Attorney should consult with tribal justice officials of each 
        Indian tribe that would be affected by the appointment.''.

SEC. 104. ADMINISTRATION.

    (a) Office of Tribal Justice.--
            (1) Definitions.--Section 4 of the Indian Tribal Justice 
        Technical and Legal Assistance Act of 2000 (25 U.S.C. 3653) is 
        amended--
                    (A) by redesignating paragraphs (2) through (7) as 
                paragraphs (3) through (8), respectively; and
                    (B) by inserting after paragraph (1) the following:
            ``(2) Director.--The term `Director' means the Director of 
        the Office of Tribal Justice.''.
            (2) Status.--Title I of the Indian Tribal Justice Technical 
        and Legal Assistance Act of 2000 is amended--
                    (A) by redesignating section 106 (25 U.S.C. 3666) 
                as section 107; and
                    (B) by inserting after section 105 (25 U.S.C. 3665) 
                the following:

``SEC. 106. OFFICE OF TRIBAL JUSTICE.

    ``(a) In General.--Not later than 90 days after the date of 
enactment of the Tribal Law and Order Act of 2009, the Attorney General 
shall modify the status of the Office of Tribal Justice as the Attorney 
General determines to be necessary to establish the Office of Tribal 
Justice as a permanent division of the Department.
    ``(b) Personnel and Funding.--The Attorney General shall provide to 
the Office of Tribal Justice such personnel and funds as are necessary 
to establish the Office of Tribal Justice as a division of the 
Department under subsection (a).
    ``(c) Additional Duties.--In addition to the duties of the Office 
of Tribal Justice in effect on the day before the date of enactment of 
the Tribal Law and Order Act of 2009, the Office of Tribal Justice 
shall--
            ``(1) serve as the program and legal policy advisor to the 
        Attorney General with respect to the treaty and trust 
        relationship between the United States and Indian tribes;
            ``(2) serve as the point of contact for federally 
        recognized tribal governments and tribal organizations with 
        respect to questions and comments regarding policies and 
        programs of the Department and issues relating to public safety 
        and justice in Indian country; and
            ``(3) coordinate with other bureaus, agencies, offices, and 
        divisions within the Department of Justice to ensure that each 
        component has an accountable process to ensure meaningful and 
        timely consultation with tribal leaders in the development of 
        regulatory policies and other actions that affect--
                    ``(A) the trust responsibility of the United States 
                to Indian tribes;
                    ``(B) any tribal treaty provision;
                    ``(C) the status of Indian tribes as a sovereign 
                governments; or
                    ``(D) any other tribal interest.''.
    (b) Office of Indian Country Crime.--The Indian Law Enforcement 
Reform Act (25 U.S.C. 2801 et seq.) (as amended by section 103(b)) is 
amended by adding at the end the following:

``SEC. 12. OFFICE OF INDIAN COUNTRY CRIME.

    ``(a) Establishment.--There is established in the criminal division 
of the Department of Justice an office, to be known as the `Office of 
Indian Country Crime'.
    ``(b) Duties.--The Office of Indian Country Crime shall--
            ``(1) develop, enforce, and administer the application of 
        Federal criminal laws applicable in Indian country;
            ``(2) coordinate with the United States Attorneys that have 
        authority to prosecute crimes in Indian country;
            ``(3) coordinate prosecutions of crimes of national 
        significance in Indian country, as determined by the Attorney 
        General;
            ``(4) develop and implement criminal enforcement policies 
        for United States Attorneys and investigators of Federal crimes 
        regarding cases arising in Indian country; and
            ``(5) submit to the Committee on Indian Affairs of the 
        Senate and the Committee on Natural Resources of the House of 
        Representatives annual reports describing the prosecution and 
        declination rates of cases involving alleged crimes in Indian 
        country referred to United States Attorneys.
    ``(c) Deputy Assistant Attorney General.--
            ``(1) Appointment.--The Attorney General shall appoint a 
        Deputy Assistant Attorney General for Indian Country Crime.
            ``(2) Duties.--The Deputy Assistant Attorney General for 
        Indian Country Crime shall--
                    ``(A) serve as the head of the Office of Indian 
                Country Crime;
                    ``(B) serve as a point of contact to United State 
                Attorneys serving districts including Indian country, 
                tribal liaisons, tribal governments, and other Federal, 
                State, and local law enforcement agencies regarding 
                issues affecting the prosecution of crime in Indian 
                country; and
                    ``(C) carry out such other duties as the Attorney 
                General may prescribe.''.

            TITLE II--STATE ACCOUNTABILITY AND COORDINATION

SEC. 201. STATE CRIMINAL JURISDICTION AND RESOURCES.

    (a) Concurrent Authority of United States.--Section 401(a) of 
Public Law 90-284 (25 U.S.C. 1321(a)) is amended--
            (1) by striking the section designation and heading and all 
        that follows through ``The consent of the United States'' and 
        inserting the following:

``SEC. 401. ASSUMPTION BY STATE OF CRIMINAL JURISDICTION.

    ``(a) Consent of United States.--
            ``(1) In general.--The consent of the United States''; and
            (2) by adding at the end the following:
            ``(2) Concurrent jurisdiction.--At the request of an Indian 
        tribe, and after consultation with the Attorney General, the 
        United States shall maintain concurrent jurisdiction to 
        prosecute violations of sections 1152 and 1153 of title 18, 
        United States Code, within the Indian country of the Indian 
        tribe.''.
    (b) Applicable Law.--Section 1162 of title 18, United States Code, 
is amended by striking subsection (c) and inserting the following:
    ``(c) Applicable Law.--At the request of an Indian tribe, and after 
consultation with the Attorney General--
            ``(1) sections 1152 and 1153 of this title shall remain in 
        effect in the areas of the Indian country of the Indian tribe; 
        and
            ``(2) jurisdiction over those areas shall be concurrent 
        among the Federal Government and State and tribal 
        governments.''.

SEC. 202. INCENTIVES FOR STATE, TRIBAL, AND LOCAL LAW ENFORCEMENT 
                    COOPERATION.

    (a) Establishment of Cooperative Assistance Program.--The Attorney 
General may provide grants, technical assistance, and other assistance 
to State, tribal, and local governments that enter into cooperative 
agreements, including agreements relating to mutual aid, hot pursuit of 
suspects, and cross-deputization for the purposes of--
            (1) improving law enforcement effectiveness; and
            (2) reducing crime in Indian country and nearby 
        communities.
    (b) Program Plans.--
            (1) In general.--To be eligible to receive assistance under 
        this section, a group composed of not less than 1 of each of a 
        tribal government and a State or local government shall jointly 
        develop and submit to the Attorney General a plan for a program 
        to achieve the purpose described in subsection (a).
            (2) Plan requirements.--A joint program plan under 
        paragraph (1) shall include a description of--
                    (A) the proposed cooperative tribal and State or 
                local law enforcement program for which funding is 
                sought, including information on the population and 
                each geographic area to be served by the program;
                    (B) the need of the proposed program for funding 
                under this section, the amount of funding requested, 
                and the proposed use of funds, subject to the 
                requirements listed in subsection (c);
                    (C) the unit of government that will administer any 
                assistance received under this section, and the method 
                by which the assistance will be distributed;
                    (D) the types of law enforcement services to be 
                performed on each applicable Indian reservation and the 
                individuals and entities that will perform those 
                services;
                    (E) the individual or group of individuals who will 
                exercise daily supervision and control over law 
                enforcement officers participating in the program;
                    (F) the method by which local and tribal government 
                input with respect to the planning and implementation 
                of the program will be ensured;
                    (G) the policies of the program regarding mutual 
                aid, hot pursuit of suspects, deputization, training, 
                and insurance of applicable law enforcement officers;
                    (H) the recordkeeping procedures and types of data 
                to be collected pursuant to the program; and
                    (I) other information that the Attorney General 
                determines to be relevant.
    (c) Permissible Uses of Funds.--An eligible entity that receives a 
grant under this section may use the grant, in accordance with the 
program plan described in subsection (b)--
            (1) to hire and train new career tribal, State, or local 
        law enforcement officers, or to make overtime payments for 
        current law enforcement officers, that are or will be dedicated 
        to--
                    (A) policing tribal land and nearby lands; and
                    (B) investigating alleged crimes on those lands;
            (2) procure equipment, technology, or support systems to be 
        used to investigate crimes and share information between 
        tribal, State, and local law enforcement agencies; or
            (3) for any other uses that the Attorney General determines 
        will meet the purposes described in subsection (a).
    (d) Factors for Consideration.--In determining whether to approve a 
joint program plan submitted under subsection (b) and, on approval, the 
amount of assistance to provide to the program, the Attorney General 
shall take into consideration the following factors:
            (1) The size and population of each Indian reservation and 
        nearby community proposed to be served by the program.
            (2) The complexity of the law enforcement problems proposed 
        to be addressed by the program.
            (3) The range of services proposed to be provided by the 
        program.
            (4) The proposed improvements the program will make 
        regarding law enforcement cooperation beyond existing levels of 
        cooperation.
            (5) The crime rates of the tribal and nearby communities.
            (6) The available resources of each entity applying for a 
        grant under this section for dedication to public safety in the 
        respective jurisdictions of the entities.
    (e) Annual Reports.--To be eligible to renew or extend a grant 
under this section, a group described in subsection (b)(1) shall submit 
to the Attorney General, together with the joint program plan under 
subsection (b), a report describing the law enforcement activities 
carried out pursuant to the program during the preceding fiscal year, 
including the success of the activities, including any increase in 
arrests or prosecutions.
    (f) Reports by Attorney General.--Not later than January 15 of each 
applicable fiscal year, the Attorney General shall submit to the 
Committee on Indian Affairs of the Senate and the Committee on Natural 
Resources of the House of Representatives a report describing the law 
enforcement programs carried out using assistance provided under this 
section during the preceding fiscal year, including the success of the 
programs.
    (g) Technical Assistance.--On receipt of a request from a group 
composed of not less than 1 tribal government and 1 State or local 
government, the Attorney General shall provide technical assistance to 
the group to develop successful cooperative relationships that 
effectively combat crime in Indian country and nearby communities.
    (h) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as are necessary to carry out this section for 
each of fiscal years 2010 through 2014.

   TITLE III--EMPOWERING TRIBAL LAW ENFORCEMENT AGENCIES AND TRIBAL 
                              GOVERNMENTS

SEC. 301. TRIBAL POLICE OFFICERS.

    (a) Flexibility in Training Law Enforcement Officers Serving Indian 
Country.--Section 3(e) of the Indian Law Enforcement Reform Act (25 
U.S.C. 2802(e)) (as amended by section 101(b)(4)) is amended--
            (1) in paragraph (1)--
                    (A) by striking ``(e)(1) The Secretary'' and 
                inserting the following:
    ``(e) Standards of Education and Experience and Classification of 
Positions.--
            ``(1) Standards of education and experience.--
                    ``(A) In general.--The Secretary''; and
                    (B) by adding at the end the following:
                    ``(B) Training.--The training standards established 
                under subparagraph (A) shall permit law enforcement 
                personnel of the Office of Justice Services or an 
                Indian tribe to obtain training at a State or tribal 
                police academy, a local or tribal community college, or 
                another training academy that meets the relevant Peace 
                Officer Standards and Training.'';
            (2) in paragraph (3), by striking ``Agencies'' and 
        inserting ``agencies''; and
            (3) by adding at the end the following:
            ``(4) Background checks for officers.--The Office of 
        Justice Services shall develop standards and deadlines for the 
        provision of background checks for tribal law enforcement and 
        corrections officials that ensure that a response to a request 
        by an Indian tribe for such a background check shall be 
        provided by not later than 60 days after the date of receipt of 
        the request, unless an adequate reason for failure to respond 
        by that date is provided to the Indian tribe.''.
    (b) Special Law Enforcement Commissions.--Section 5(a) of the 
Indian Law Enforcement Reform Act (25 U.S.C. 2804(a)) is amended--
            (1) by striking ``(a) The Secretary may enter into an 
        agreement'' and inserting the following:
    ``(a) Agreements.--
            ``(1) In general.--Not later than 180 days after the date 
        of enactment of the Tribal Law and Order Act of 2009, the 
        Secretary shall establish procedures to enter into memoranda of 
        agreement'';
            (2) in the second sentence, by striking ``The Secretary'' 
        and inserting the following:
            ``(2) Certain activities.--The Secretary''; and
            (3) by adding at the end the following:
            ``(3) Program enhancement.--
                    ``(A) Training sessions in indian country.--
                            ``(i) In general.--The procedures described 
                        in paragraph (1) shall include the development 
                        of a plan to enhance the certification and 
                        provision of special law enforcement 
                        commissions to tribal law enforcement 
                        officials, and, subject to subsection (d), 
                        State and local law enforcement officials, 
                        pursuant to this section.
                            ``(ii) Inclusions.--The plan under clause 
                        (i) shall include the hosting of regional 
                        training sessions in Indian country, not less 
                        frequently than biannually, to educate and 
                        certify candidates for the special law 
                        enforcement commissions.
                    ``(B) Memoranda of agreement.--
                            ``(i) In general.--Not later than 180 days 
                        after the date of enactment of the Tribal Law 
                        and Order Act of 2009, the Secretary, in 
                        consultation with Indian tribes and tribal law 
                        enforcement agencies, shall develop minimum 
                        requirements to be included in special law 
                        enforcement commission agreements pursuant to 
                        this section.
                            ``(ii) Agreement.--Not later than 60 days 
                        after the date on which the Secretary 
                        determines that all applicable requirements 
                        under clause (i) are met, the Secretary shall 
                        offer to enter into a special law enforcement 
                        commission agreement with the applicable Indian 
                        tribe.''.
    (c) Indian Law Enforcement Foundation.--The Indian Self-
Determination and Education Assistance Act (25 U.S.C. 450 et seq.) is 
amended by adding at the end the following:

             ``TITLE VII--INDIAN LAW ENFORCEMENT FOUNDATION

``SEC. 701. INDIAN LAW ENFORCEMENT FOUNDATION.

    ``(a) Establishment.--As soon as practicable after the date of 
enactment of this title, the Secretary shall establish, under the laws 
of the District of Columbia and in accordance with this title, a 
foundation, to be known as the `Indian Law Enforcement Foundation' 
(referred to in this section as the `Foundation').
    ``(b) Duties.--The Foundation shall--
            ``(1) encourage, accept, and administer, in accordance with 
        the terms of each donation, private gifts of real and personal 
        property, and any income from or interest in such gifts, for 
        the benefit of, or in support of, public safety and justice 
        services in American Indian and Alaska Native communities; and
            ``(2) assist the Office of Justice Services of the Bureau 
        of Indian Affairs and Indian tribal governments in funding and 
        conducting activities and providing education to advance and 
        support the provision of public safety and justice services in 
        American Indian and Alaska Native communities.''.
    (d) Acceptance and Assistance.--Section 5 of the Indian Law 
Enforcement Reform Act (25 U.S.C. 2804) is amended by adding at the end 
the following:
    ``(g) Acceptance of Assistance.--The Bureau may accept 
reimbursement, resources, assistance, or funding from--
            ``(1) a Federal, tribal, State, or other government agency; 
        or
            ``(2) the Indian Law Enforcement Foundation established 
        under section 701(a) of the Indian Self-Determination and 
        Education Assistance Act.''.

SEC. 302. DRUG ENFORCEMENT IN INDIAN COUNTRY.

    (a) Education and Research Programs.--Section 502 of the Controlled 
Substances Act (21 U.S.C. 872) is amended in subsections (a)(1) and 
(c), by inserting `` tribal,'' after ``State,'' each place it appears.
    (b) Public-Private Education Program.--Section 503 of the 
Comprehensive Methamphetamine Control Act of 1996 (21 U.S.C. 872a) is 
amended--
            (1) in subsection (a), by inserting ``tribal,'' after 
        ``State,''; and
            (2) in subsection (b)(2), by inserting ``, tribal,'' after 
        ``State''.
    (c) Cooperative Arrangements.--Section 503 of the Controlled 
Substances Act (21 U.S.C. 873) is amended--
            (1) in subsection (a)--
                    (A) by inserting ``tribal,'' after ``State,'' each 
                place it appears; and
                    (B) in paragraphs (6) and (7), by inserting ``, 
                tribal,'' after ``State'' each place it appears; and
            (2) in subsection (d)(1), by inserting ``, tribal,'' after 
        ``State''.
    (d) Powers of Enforcement Personnel.--Section 508(a) of the 
Controlled Substances Act (21 U.S.C. 878(a)) is amended in the matter 
preceding paragraph (1) by inserting ``, tribal,'' after ``State''.

SEC. 303. ACCESS TO NATIONAL CRIMINAL INFORMATION DATABASES.

    (a) Access to National Criminal Information Databases.--Section 534 
of title 28, United States Code, is amended--
            (1) in subsection (a)(4), by inserting ``Indian tribes,'' 
        after ``the States,'';
            (2) by striking subsection (d) and inserting the following:
    ``(d) Indian Law Enforcement Agencies.--The Attorney General shall 
permit tribal and Bureau of Indian Affairs law enforcement agencies--
            ``(1) to directly access and enter information into Federal 
        criminal information databases; and
            ``(2) to directly obtain information from the databases.'';
            (3) by redesignating the second subsection (e) as 
        subsection (f); and
            (4) in paragraph (2) of subsection (f) (as redesignated by 
        paragraph (3)), in the matter preceding subparagraph (A), by 
        inserting ``, tribal,'' after ``Federal''.
    (b) Requirement.--
            (1) In general.--The Attorney General shall ensure that 
        tribal law enforcement officials that meet applicable Federal 
        or State requirements have access to national crime information 
        databases.
            (2) Sanctions.--For purpose of sanctions for noncompliance 
        with requirements of, or misuse of, national crime information 
        databases and information obtained from those databases, a 
        tribal law enforcement agency or official shall be treated as 
        Federal law enforcement agency or official.
            (3) NCIC.--Each tribal justice official serving an Indian 
        tribe with criminal jurisdiction over Indian country shall be 
        considered to be an authorized law enforcement official for 
        purposes of access to the National Crime Information Center of 
        the Federal Bureau of Investigation.

SEC. 304. TRIBAL COURT SENTENCING AUTHORITY.

    (a) Constitutional Rights.--Section 202 of Public Law 90-284 (25 
U.S.C. 1302) is amended--
            (1) in the matter preceding paragraph (1), by striking ``No 
        Indian tribe'' and inserting the following:
    ``(a) In General.--No Indian tribe'';
            (2) in paragraph (7) of subsection (a) (as designated by 
        paragraph (1)), by striking ``and a fine'' and inserting ``or a 
        fine''; and
            (3) by adding at the end the following:
    ``(b) Tribal Courts and Prisoners.--
            ``(1) In general.--Notwithstanding paragraph (7) of 
        subsection (a) and in addition to the limitations described in 
        the other paragraphs of that subsection, no Indian tribe, in 
        exercising any power of self-government involving a criminal 
        trial that subjects a defendant to more than 1 year 
        imprisonment for any single offense, may--
                    ``(A) deny any person in such a criminal proceeding 
                the assistance of a defense attorney licensed to 
                practice law in any jurisdiction in the United States;
                    ``(B) require excessive bail, impose an excessive 
                fine, inflict a cruel or unusual punishment, or impose 
                for conviction of a single offense any penalty or 
                punishment greater than imprisonment for a term of 3 
                years or a fine of $15,000, or both; or
                    ``(C) deny any person in such a criminal proceeding 
                the due process of law.
            ``(2) Authority.--An Indian tribe exercising authority 
        pursuant to this subsection shall--
                    ``(A) require that each judge presiding over an 
                applicable criminal case is licensed to practice law in 
                any jurisdiction in the United States; and
                    ``(B) make publicly available the criminal laws 
                (including regulations and interpretive documents) of 
                the Indian tribe.
            ``(3) Sentences.--A tribal court acting pursuant to 
        paragraph (1) may require a convicted offender--
                    ``(A) to serve the sentence--
                            ``(i) in a tribal correctional center that 
                        has been approved by the Bureau of Indian 
                        Affairs for long-term incarceration, in 
                        accordance with guidelines developed by the 
                        Bureau of Indian Affairs, in consultation with 
                        Indian tribes;
                            ``(ii) in the nearest appropriate Federal 
                        facility, at the expense of the United States 
                        pursuant to a memorandum of agreement with 
                        Bureau of Prisons in accordance with paragraph 
                        (4);
                            ``(iii) in a State or local government-
                        approved detention or correctional center 
                        pursuant to an agreement between the Indian 
                        tribe and the State or local government; or
                            ``(iv) subject to paragraph (1), in an 
                        alternative rehabilitation center of an Indian 
                        tribe; or
                    ``(B) to serve another alternative form of 
                punishment, as determined by the tribal court judge 
                pursuant to tribal law.
            ``(4) Memoranda of agreement.--A memorandum of agreement 
        between an Indian tribe and the Bureau of Prisons under 
        paragraph (2)(A)(ii)--
                    ``(A) shall acknowledge that the United States will 
                incur all costs involved, including the costs of 
                transfer, housing, medical care, rehabilitation, and 
                reentry of transferred prisoners;
                    ``(B) shall limit the transfer of prisoners to 
                prisoners convicted in tribal court of violent crimes, 
                crimes involving sexual abuse, and serious drug 
                offenses, as determined by the Bureau of Prisons, in 
                consultation with tribal governments, by regulation;
                    ``(C) shall not affect the jurisdiction, power of 
                self-government, or any other authority of an Indian 
                tribe over the territory or members of the Indian 
                tribe;
                    ``(D) shall contain such other requirements as the 
                Bureau of Prisons, in consultation with the Bureau of 
                Indian Affairs and tribal governments, may determine, 
                by regulation; and
                    ``(E) shall be executed and carried out not later 
                than 180 days after the date on which the applicable 
                Indian tribe first contacts the Bureau of Prisons to 
                accept a transfer of a tribal court offender pursuant 
                to this subsection.
    ``(c) Effect of Section.--Nothing in this section affects the 
obligation of the United States, or any State government that has been 
delegated authority by the United States, to investigate and prosecute 
any criminal violation in Indian country.''.
    (b) Grants and Contracts.--Section 1007(b) of the Economic 
Opportunity Act of 1964 (42 U.S.C. 2996f(b)) is amended by striking 
paragraph (2) and inserting the following:
            ``(2) to provide legal assistance with respect to any 
        criminal proceeding, except to provide assistance to a person 
        charged with an offense in an Indian tribal court;''.

SEC. 305. INDIAN LAW AND ORDER COMMISSION.

    (a) Establishment.--There is established a commission to be known 
as the Indian Law and Order Commission (referred to in this section as 
the ``Commission'').
    (b) Membership.--
            (1) In general.--The Commission shall be composed of 9 
        members, of whom--
                    (A) 3 shall be appointed by the President, in 
                consultation with--
                            (i) the Attorney General; and
                            (ii) the Secretary of the Interior;
                    (B) 2 shall be appointed by the majority leader of 
                the Senate, in consultation with the Chairperson of the 
                Committee on Indian Affairs of the Senate;
                    (C) 1 shall be appointed by the minority leader of 
                the Senate, in consultation with the Vice Chairperson 
                of the Committee on Indian Affairs of the Senate;
                    (D) 2 shall be appointed by the Speaker of the 
                House of Representatives, in consultation with the 
                Chairperson of the Committee on Natural Resources of 
                the House of Representatives; and
                    (E) 1 shall be appointed by the minority leader of 
                the House of Representatives, in consultation with the 
                Ranking Member of the Committee on Natural Resources of 
                the House of Representatives.
            (2) Requirements for eligibility.--Each member of the 
        Commission shall have significant experience and expertise in--
                    (A) the Indian country criminal justice system; and
                    (B) matters to be studied by the Commission.
            (3) Consultation required.--The President, the Speaker and 
        minority leader of the House of Representatives, and the 
        majority leader and minority leader of the Senate shall consult 
        before the appointment of members of the Commission under 
        paragraph (1) to achieve, to the maximum extent practicable, 
        fair and equitable representation of various points of view 
        with respect to the matters to be studied by the Commission.
            (4) Term.--Each member shall be appointed for the life of 
        the Commission.
            (5) Time for initial appointments.--The appointment of the 
        members of the Commission shall be made not later than 60 days 
        after the date of enactment of this Act.
            (6) Vacancies.--A vacancy in the Commission shall be 
        filled--
                    (A) in the same manner in which the original 
                appointment was made; and
                    (B) not later than 60 days after the date on which 
                the vacancy occurred.
    (c) Operation.--
            (1) Chairperson.--Not later than 15 days after the date on 
        which all members of the Commission have been appointed, the 
        Commission shall select 1 member to serve as Chairperson of the 
        Commission.
            (2) Meetings.--
                    (A) In general.--The Commission shall meet at the 
                call of the Chairperson.
                    (B) Initial meeting.--The initial meeting shall 
                take place not later than 30 days after the date 
                described in paragraph (1).
            (3) Quorum.--A majority of the members of the Commission 
        shall constitute a quorum, but a lesser number of members may 
        hold hearings.
            (4) Rules.--The Commission may establish, by majority vote, 
        any rules for the conduct of Commission business, in accordance 
        with this Act and other applicable law.
    (d) Comprehensive Study of Criminal Justice System Relating to 
Indian Country.--The Commission shall conduct a comprehensive study of 
law enforcement and criminal justice in tribal communities, including--
            (1) jurisdiction over crimes committed in Indian country 
        and the impact of that jurisdiction on--
                    (A) the investigation and prosecution of Indian 
                country crimes; and
                    (B) residents of Indian land;
            (2) the tribal jail and Federal prisons systems and the 
        effect of those systems with respect to--
                    (A) reducing Indian country crime; and
                    (B) rehabilitation of offenders;
            (3)(A) tribal juvenile justice systems and the Federal 
        juvenile justice system as relating to Indian country; and
            (B) the effect of those systems and related programs in 
        preventing juvenile crime, rehabilitating Indian youth in 
        custody, and reducing recidivism among Indian youth;
            (4) the impact of the Indian Civil Rights Act of 1968 (25 
        U.S.C. 1301 et seq.) on--
                    (A) the authority of Indian tribes; and
                    (B) the rights of defendants subject to tribal 
                government authority; and
            (5) studies of such other subjects as the Commission 
        determines relevant to achieve the purposes of the Tribal Law 
        and Order Act of 2009.
    (e) Recommendations.--Taking into consideration the results of the 
study under paragraph (1), the Commission shall develop recommendations 
on necessary modifications and improvements to justice systems at the 
tribal, Federal, and State levels, including consideration of--
            (1) simplifying jurisdiction in Indian country;
            (2) improving services and programs--
                    (A) to prevent juvenile crime on Indian land;
                    (B) to rehabilitate Indian youth in custody; and
                    (C) to reduce recidivism among Indian youth;
            (3) enhancing the penal authority of tribal courts and 
        exploring alternatives to incarceration;
            (4) the establishment of satellite United States magistrate 
        or district courts in Indian country;
            (5) changes to the tribal jails and Federal prison systems; 
        and
            (6) other issues that, as determined by the Commission, 
        would reduce violent crime in Indian country.
    (f) Report.--Not later than 2 years after the date of enactment of 
this Act, the Commission shall submit to the President and Congress a 
report that contains--
            (1) a detailed statement of the findings and conclusions of 
        the Commission; and
            (2) the recommendations of the Commission for such 
        legislative and administrative actions as the Commission 
        considers to be appropriate.
    (g) Powers.--
            (1) Hearings.--
                    (A) In general.--The Commission may hold such 
                hearings, meet and act at such times and places, take 
                such testimony, and receive such evidence as the 
                Commission considers to be advisable to carry out the 
                duties of the Commission under this section.
                    (B) Public requirement.--The hearings of the 
                Commission under this paragraph shall be open to the 
                public.
            (2) Witness expenses.--
                    (A) In general.--A witness requested to appear 
                before the Commission shall be paid the same fees as 
                are paid to witnesses under section 1821 of title 28, 
                United States Code.
                    (B) Per diem and mileage.--The per diem and mileage 
                allowance for a witness shall be paid from funds made 
                available to the Commission.
            (3) Information from federal, tribal, and state agencies.--
                    (A) In general.--The Commission may secure directly 
                from a Federal agency such information as the 
                Commission considers to be necessary to carry out this 
                section.
                    (B) Tribal and state agencies.--The Commission may 
                request the head of any tribal or State agency to 
                provide to the Commission such information as the 
                Commission considers to be necessary to carry out this 
                section.
            (4) Postal services.--The Commission may use the United 
        States mails in the same manner and under the same conditions 
        as other agencies of the Federal Government.
            (5) Gifts.--The Commission may accept, use, and dispose of 
        gifts or donations of services or property.
    (h) Commission Personnel Matters.--
            (1) Travel expenses.--A member of the Commission shall be 
        allowed travel expenses, including per diem in lieu of 
        subsistence, at rates authorized for an employee of an agency 
        under subchapter I of chapter 57 of title 5, United States 
        Code, while away from the home or regular place of business of 
        the member in the performance of the duties of the Commission.
            (2) Detail of federal employees.--On the affirmative vote 
        of \2/3\ of the members of the Commission and the approval of 
        the appropriate Federal agency head, an employee of the Federal 
        Government may be detailed to the Commission without 
        reimbursement, and such detail shall be without interruption or 
        loss of civil service status, benefits, or privileges.
            (3) Procurement of temporary and intermittent services.--On 
        request of the Commission, the Attorney General and Secretary 
        shall provide to the Commission reasonable and appropriate 
        office space, supplies, and administrative assistance.
    (i) Contracts for Research.--
            (1) Researchers and experts.--
                    (A) In general.--On an affirmative vote of \2/3\ of 
                the members of the Commission, the Commission may 
                select nongovernmental researchers and experts to 
                assist the Commission in carrying out the duties of the 
                Commission under this section.
                    (B) National institute of justice.--The National 
                Institute of Justice may enter into a contract with the 
                researchers and experts selected by the Commission 
                under subparagraph (A) to provide funding in exchange 
                for the services of the researchers and experts.
            (2) Other organizations.--Nothing in this subsection limits 
        the ability of the Commission to enter into contracts with any 
        other entity or organization to carry out research necessary to 
        carry out the duties of the Commission under this section.
    (j) Tribal Advisory Committee.--
            (1) Establishment.--The Commission shall establish a 
        committee, to be known as the ``Tribal Advisory Committee''.
            (2) Membership.--
                    (A) Composition.--The Tribal Advisory Committee 
                shall consist of 2 representatives of Indian tribes 
                from each region of the Bureau of Indian Affairs.
                    (B) Qualifications.--Each member of the Tribal 
                Advisory Committee shall have experience relating to--
                            (i) justice systems;
                            (ii) crime prevention; or
                            (iii) victim services.
            (3) Duties.--The Tribal Advisory Committee shall--
                    (A) serve as an advisory body to the Commission; 
                and
                    (B) provide to the Commission advice and 
                recommendations, submit materials, documents, 
                testimony, and such other information as the Commission 
                determines to be necessary to carry out the duties of 
                the Commission under this section.
    (k) Authorization of Appropriations.--There are authorized to be 
appropriated such sums as are necessary to carry out this section, to 
remain available until expended.
    (l) Termination of Commission.--The Commission shall terminate 90 
days after the date on which the Commission submits the report of the 
Commission under subsection (c)(3).
    (m) Nonapplicability of FACA.--The Federal Advisory Committee Act 
(5 U.S.C. App.) shall not apply to the Commission.

                    TITLE IV--TRIBAL JUSTICE SYSTEMS

SEC. 401. INDIAN ALCOHOL AND SUBSTANCE ABUSE.

    (a) Correction of References.--
            (1) Inter-departmental memorandum of agreement.--Section 
        4205 of the Indian Alcohol and Substance Abuse Prevention and 
        Treatment Act of 1986 (25 U.S.C. 2411) is amended--
                    (A) in subsection (a)--
                            (i) in the matter preceding paragraph (1)--
                                    (I) by striking ``the date of 
                                enactment of this subtitle'' and 
                                inserting ``the date of enactment of 
                                the Tribal Law and Order Act of 2009''; 
                                and
                                    (II) by inserting ``, the Attorney 
                                General,'' after ``Secretary of the 
                                Interior'';
                            (ii) in paragraph (2)(A), by inserting ``, 
                        Bureau of Justice Assistance, Substance Abuse 
                        and Mental Health Services Administration,'' 
                        after ``Bureau of Indian Affairs,'';
                            (iii) in paragraph (4), by inserting ``, 
                        Department of Justice, Substance Abuse and 
                        Mental Health Services Administration,'' after 
                        ``Bureau of Indian Affairs'';
                            (iv) in paragraph (5), by inserting ``, 
                        Department of Justice, Substance Abuse and 
                        Mental Health Services Administration,'' after 
                        ``Bureau of Indian Affairs'';
                            (v) in paragraph (7), by inserting ``, the 
                        Attorney General,'' after ``Secretary of the 
                        Interior'';
                    (B) in subsection (c), by inserting ``, the 
                Attorney General,'' after ``Secretary of the 
                Interior''; and
                    (C) in subsection (d), by striking ``the date of 
                enactment of this subtitle'' and inserting ``the date 
                of enactment of the Tribal Law and Order Act of 2009''.
            (2) Tribal action plans.--Section 4206 of the Indian 
        Alcohol and Substance Abuse Prevention and Treatment Act of 
        1986 (25 U.S.C. 2412) is amended--
                    (A) in subsection (b), in the first sentence, by 
                inserting ``, the Bureau of Justice Assistance, the 
                Substance Abuse and Mental Health Services 
                Administration,'' before ``and the Indian Health 
                Service service unit'';
                    (B) in subsection (c)(1)(A)(i), by inserting ``, 
                the Bureau of Justice Assistance, the Substance Abuse 
                and Mental Health Services Administration,'' before 
                ``and the Indian Health Service service unit'';
                    (C) in subsection (d)(2), by striking ``fiscal year 
                1993 and such sums as are necessary for each of the 
                fiscal years 1994, 1995, 1996, 1997, 1998, 1999, and 
                2000'' and inserting ``the period of fiscal years 2010 
                through 2014'';
                    (D) in subsection (e), in the first sentence, by 
                inserting ``, the Attorney General,'' after ``the 
                Secretary of the Interior''; and
                    (E) in subsection (f)(3), by striking ``fiscal year 
                1993 and such sums as are necessary for each of the 
                fiscal years 1994, 1995, 1996, 1997, 1998, 1999, and 
                2000'' and inserting ``the period of fiscal years 2010 
                through 2014''.
            (3) Departmental responsibility.--Section 4207 of the 
        Indian Alcohol and Substance Abuse Prevention and Treatment Act 
        of 1986 (25 U.S.C. 2413) is amended--
                    (A) in subsection (a), by inserting ``, the 
                Attorney General'' after ``Bureau of Indian Affairs'';
                    (B) in subsection (b)--
                            (i) by striking paragraph (1) and inserting 
                        the following:
            ``(1) Establishment.--
                    ``(A) In general.--To improve coordination among 
                the Federal agencies and departments carrying out this 
                subtitle, there is established within the Substance 
                Abuse and Mental Health Services Administration an 
                office, to be known as the `Office of Indian Alcohol 
                and Substance Abuse' (referred to in this section as 
                the `Office').
                    ``(B) Director.--The director of the Office shall 
                be appointed by the Director of the Substance Abuse and 
                Mental Health Services Administration--
                            ``(i) on a permanent basis; and
                            ``(ii) at a grade of not less than GS-15 of 
                        the General Schedule.'';
                            (ii) in paragraph (2)--
                                    (I) by striking ``(2) In addition'' 
                                and inserting the following:
            ``(2) Responsibilities of office.--In addition'';
                                    (II) by striking subparagraph (A) 
                                and inserting the following:
                    ``(A) coordinating with other agencies to monitor 
                the performance and compliance of the relevant Federal 
                programs in achieving the goals and purposes of this 
                subtitle and the Memorandum of Agreement entered into 
                under section 4205;'';
                                    (III) in subparagraph (B)--
    (aa) by striking ``within the Bureau of Indian Affairs''; and
    (bb) by striking the period at the end and inserting ``; and''; and
                                    (IV) by adding at the end the 
                                following:
                    ``(C) not later than 1 year after the date of 
                enactment of the Tribal Law and Order Act of 2009, 
                developing, in coordination and consultation with 
                tribal governments, a framework for interagency and 
                tribal coordination that--
                            ``(i) establish the goals and other desired 
                        outcomes of this Act;
                            ``(ii) prioritizes outcomes that are 
                        aligned with the purposes of affected agencies;
                            ``(iii) provides guidelines for resource 
                        and information sharing;
                            ``(iv) provides technical assistance to the 
                        affected agencies to establish effective and 
                        permanent interagency communication and 
                        coordination; and
                            ``(v) determines whether collaboration is 
                        feasible, cost-effective, and within agency 
                        capability.''; and
                            (iii) by striking paragraph (3) and 
                        inserting the following:
            ``(3) Appointment of employees.--The Director of the 
        Substance Abuse and Mental Health Services Administration shall 
        appoint such employees to work in the Office, and shall provide 
        such funding, services, and equipment, as may be necessary to 
        enable the Office to carry out the responsibilities under this 
        subsection.''; and
                    (C) in subsection (c)--
                            (i) by striking ``of Alcohol and Substance 
                        Abuse'' each place it appears;
                            (ii) in paragraph (1), in the second 
                        sentence, by striking ``The Assistant Secretary 
                        of the Interior for Indian Affairs'' and 
                        inserting ``The Director of the Substance Abuse 
                        and Mental Health Services Administration''; 
                        and
                            (iii) in paragraph (3)--
                                    (I) in the matter preceding 
                                subparagraph (A), by striking ``Youth'' 
                                and inserting ``youth''; and
                                    (II) by striking ``programs of the 
                                Bureau of Indian Affairs'' and 
                                inserting ``the applicable Federal 
                                programs''.
            (4) Review of programs.--Section 4208a(a) of the Indian 
        Alcohol and Substance Abuse Prevention and Treatment Act of 
        1986 (25 U.S.C. 2414a(a)) is amended in the matter preceding 
        paragraph (1) by inserting ``, the Attorney General,'' after 
        ``the Secretary of the Interior''.
            (5) Federal facilities, property, and equipment.--Section 
        4209 of the Indian Alcohol and Substance Abuse Prevention and 
        Treatment Act of 1986 (25 U.S.C. 2415) is amended--
                    (A) in subsection (a), by inserting ``, the 
                Attorney General,'' after ``the Secretary of the 
                Interior'';
                    (B) in subsection (b)--
                            (i) in the first sentence, by inserting ``, 
                        the Attorney General,'' after ``the Secretary 
                        of the Interior'';
                            (ii) in the second sentence, by inserting 
                        ``, nor the Attorney General,'' after ``the 
                        Secretary of the Interior''; and
                            (iii) in the third sentence, by inserting 
                        ``, the Department of Justice,'' after ``the 
                        Department of the Interior''; and
                    (C) in subsection (c)(1), by inserting ``, the 
                Attorney General,'' after ``the Secretary of the 
                Interior''.
            (6) Newsletter.--Section 4210 of the Indian Alcohol and 
        Substance Abuse Prevention and Treatment Act of 1986 (25 U.S.C. 
        2416) is amended--
                    (A) in subsection (a), in the first sentence, by 
                inserting ``, the Attorney General,'' after ``the 
                Secretary of the Interior''; and
                    (B) in subsection (b), by striking ``fiscal year 
                1993 and such sums as may be necessary for each of the 
                fiscal years 1994, 1995, 1996, 1997, 1998, 1999, and 
                2000'' and inserting ``the period of fiscal years 2010 
                through 2014''.
            (7) Review.--Section 4211(a) of the Indian Alcohol and 
        Substance Abuse Prevention and Treatment Act of 1986 (25 U.S.C. 
        2431(a)) is amended in the matter preceding paragraph (1) by 
        inserting ``, the Attorney General,'' after ``the Secretary of 
        the Interior''.
    (b) Indian Education Programs.--Section 4212 of the Indian Alcohol 
and Substance Abuse Prevention Act of 1986 (25 U.S.C. 2432) is amended 
by striking subsection (a) and inserting the following:
    ``(a) Summer Youth Programs.--
            ``(1) In general.--The head of the Indian Alcohol and 
        Substance Abuse Program, in coordination with the Assistant 
        Secretary for Indian Affairs, shall develop and implement 
        programs in tribal schools and schools funded by the Bureau of 
        Indian Education (subject to the approval of the local school 
        board or contract school board) to determine the effectiveness 
        of summer youth programs in advancing the purposes and goals of 
        this Act.
            ``(2) Costs.--The head of the Indian Alcohol and Substance 
        Abuse Program and the Assistant Secretary shall defray all 
        costs associated with the actual operation and support of the 
        summer youth programs in a school from funds appropriated to 
        carry out this subsection.
            ``(3) Authorization of appropriations.--There are 
        authorized to be appropriated to carry out the programs under 
        this subsection such sums as are necessary for each of fiscal 
        years 2010 through 2014.''.
    (c) Emergency Shelters.--Section 4213(e) of the Indian Alcohol and 
Substance Abuse Prevention and Treatment Act of 1986 (25 U.S.C. 
2433(e)) is amended--
            (1) in paragraph (1), by striking ``as may be necessary'' 
        and all that follows through the end of the paragraph and 
        inserting ``as are necessary for each of fiscal years 2010 
        through 2014.'';
            (2) in paragraph (2), by striking ``$7,000,000'' and all 
        that follows through the end of the paragraph and inserting 
        ``$10,000,000 for each of fiscal years 2010 through 2014.''; 
        and
            (3) by indenting paragraphs (4) and (5) appropriately.
    (d) Review of Programs.--Section 4215(a) of the Indian Alcohol and 
Substance Abuse Prevention and Treatment Act of 1986 (25 U.S.C. 
2441(a)) is amended by inserting ``, the Attorney General,'' after 
``the Secretary of the Interior''.
    (e) Illegal Narcotics Trafficking; Source Eradication.--Section 
4216 of the Indian Alcohol and Substance Abuse Prevention and Treatment 
Act of 1986 (25 U.S.C. 2442) is amended--
            (1) in subsection (a)--
                    (A) in paragraph (1)--
                            (i) in subparagraph (A), by striking the 
                        comma at the end and inserting a semicolon;
                            (ii) in subparagraph (B), by striking ``, 
                        and'' at the end and inserting a semicolon;
                            (iii) in subparagraph (C), by striking the 
                        period at the end and inserting ``; and''; and
                            (iv) by adding at the end the following:
                    ``(D) the Blackfeet Nation of Montana for the 
                investigation and control of illegal narcotics traffic 
                on the Blackfeet Indian Reservation along the border 
                with Canada.'';
                    (B) in paragraph (2), by striking ``United States 
                Custom Service'' and inserting ``United States Customs 
                and Border Protection''; and
                    (C) by striking paragraph (3) and inserting the 
                following:
            ``(3) Authorization of appropriations.--There are 
        authorized to be appropriated to carry out this subsection such 
        sums as are necessary for each of fiscal years 2010 through 
        2014.''; and
            (2) in subsection (b)(2), by striking ``as may be 
        necessary'' and all that follows through the end of the 
        paragraph and inserting ``as are necessary for each of fiscal 
        years 2010 through 2014.''.
    (f) Law Enforcement and Judicial Training.--Section 4218 of the 
Indian Alcohol and Substance Abuse Prevention and Treatment Act of 1986 
(25 U.S.C. 2451) is amended--
            (1) by striking subsection (a) and inserting the following:
    ``(a) Training Programs.--
            ``(1) In general.--The Secretary of the Interior, in 
        coordination with the Attorney General, the Administrator of 
        the Drug Enforcement Administration, and the Director of the 
        Federal Bureau of Investigation, shall ensure, through the 
        establishment of a new training program or by supplementing 
        existing training programs, that all Bureau of Indian Affairs 
        and tribal law enforcement and judicial personnel have access 
        to training regarding--
                    ``(A) the investigation and prosecution of offenses 
                relating to illegal narcotics; and
                    ``(B) alcohol and substance abuse prevention and 
                treatment.
            ``(2) Youth-related training.--Any training provided to 
        Bureau of Indian Affairs or tribal law enforcement or judicial 
        personnel under paragraph (1) shall include training in issues 
        relating to youth alcohol and substance abuse prevention and 
        treatment.''; and
            (2) in subsection (b), by striking ``as may be necessary'' 
        and all that follows through the end of the subsection and 
        inserting ``as are necessary for each of fiscal years 2010 
        through 2014.''.
    (g) Juvenile Detention Centers.--Section 4220 of the Indian Alcohol 
and Substance Abuse Prevention and Treatment Act of 1986 (25 U.S.C. 
2453) is amended--
            (1) in subsection (a)--
                    (A) by striking ``The Secretary'' the first place 
                it appears and inserting the following:
            ``(1) In general.--The Secretary'';
                    (B) in the second sentence, by striking ``The 
                Secretary shall'' and inserting the following:
            ``(2) Construction and operation.--The Secretary shall''; 
        and
                    (C) by adding at the end the following:
            ``(3) Development of plan.--
                    ``(A) In general.--Not later than 180 days after 
                the date of enactment of this paragraph, the Secretary, 
                the Director of the Substance Abuse and Mental Health 
                Services Administration, the Director of the Indian 
                Health Service, and the Attorney General, in 
                consultation with tribal leaders and tribal justice 
                officials, shall develop a long-term plan for the 
                construction, renovation, and operation of Indian 
                juvenile detention and treatment centers and 
                alternatives to detention for juvenile offenders.
                    ``(B) Coordination.--The plan under subparagraph 
                (A) shall require the Bureau of Indian Education and 
                the Indian Health Service to coordinate with tribal and 
                Bureau of Indian Affairs juvenile detention centers to 
                provide services to those centers.''; and
            (2) in subsection (b)--
                    (A) by striking ``such sums as may be necessary for 
                each of the fiscal years 1994, 1995, 1996, 1997, 1998, 
                1999, and 2000'' each place it appears and inserting 
                ``such sums as are necessary for each of fiscal years 
                2010 through 2014''; and
                    (B) by indenting paragraph (2) appropriately.

SEC. 402. INDIAN TRIBAL JUSTICE; TECHNICAL AND LEGAL ASSISTANCE.

    (a) Indian Tribal Justice.--
            (1) Base support funding.--Section 103(b) of the Indian 
        Tribal Justice Act (25 U.S.C. 3613(b)) is amended by striking 
        paragraph (2) and inserting the following:
            ``(2) the employment of tribal court personnel, including 
        tribal court judges, prosecutors, public defenders, guardians 
        ad litem, and court-appointed special advocates for children 
        and juveniles;''.
            (2) Tribal justice systems.--Section 201 of the Indian 
        Tribal Justice Act (25 U.S.C. 3621) is amended--
                    (A) in subsection (a)--
                            (i) by striking ``the provisions of 
                        sections 101 and 102 of this Act'' and 
                        inserting ``sections 101 and 102''; and
                            (ii) by striking ``the fiscal years 2000 
                        through 2007'' and inserting ``fiscal years 
                        2010 through 2014'';
                    (B) in subsection (b)--
                            (i) by striking ``the provisions of section 
                        103 of this Act'' and inserting ``section 
                        103''; and
                            (ii) by striking ``the fiscal years 2000 
                        through 2007'' and inserting ``fiscal years 
                        2010 through 2014'';
                    (C) in subsection (c), by striking ``the fiscal 
                years 2000 through 2007'' and inserting ``fiscal years 
                2010 through 2014''; and
                    (D) in subsection (d), by striking ``the fiscal 
                years 2000 through 2007'' and inserting ``fiscal years 
                2010 through 2014''.
    (b) Technical and Legal Assistance.--
            (1) Tribal civil legal assistance grants.--Section 102 of 
        the Indian Tribal Justice Technical and Legal Assistance Act of 
        2000 (25 U.S.C. 3662) is amended by inserting ``(including 
        guardians ad litem and court-appointed special advocates for 
        children and juveniles)'' after ``civil legal assistance''.
            (2) Tribal criminal legal assistance grants.--Section 103 
        of the Indian Tribal Justice Technical and Legal Assistance Act 
        of 2000 (25 U.S.C. 3663) is amended by striking ``criminal 
        legal assistance to members of Indian tribes and tribal justice 
        systems'' and inserting ``criminal legal assistance services to 
        all defendants subject to tribal court jurisdiction and 
        judicial services for tribal courts''.
            (3) Funding.--The Indian Tribal Justice Technical and Legal 
        Assistance Act of 2000 is amended--
                    (A) in section 106 (25 U.S.C. 3666), by striking 
                ``2000 through 2004'' and inserting ``2010 through 
                2014''; and
                    (B) in section 201(d) (25 U.S.C. 3681(d)), by 
                striking ``2000 through 2004'' and inserting ``2010 
                through 2014''.

SEC. 403. TRIBAL RESOURCES GRANT PROGRAM.

    Section 1701 of the Omnibus Crime Control and Safe Streets Act of 
1968 (42 U.S.C. 3796dd) is amended--
            (1) in subsection (b)--
                    (A) in each of paragraphs (1) through (4) and (6) 
                through (17), by inserting ``to'' after the paragraph 
                designation;
                    (B) in paragraph (1), by striking ``State and'' and 
                inserting ``State, tribal, or'';
                    (C) in paragraphs (9) and (10), by inserting ``, 
                tribal,'' after ``State'' each place it appears;
                    (D) in paragraph (15)--
                            (i) by striking ``a State in'' and 
                        inserting ``a State or Indian tribe in'';
                            (ii) by striking ``the State which'' and 
                        inserting ``the State or tribal community 
                        that''; and
                            (iii) by striking ``a State or'' and 
                        inserting ``a State, tribal, or'';
                    (E) in paragraph (16), by striking ``and'' at the 
                end
                    (F) in paragraph (17), by striking the period at 
                the end and inserting ``; and'';
                    (G) by redesignating paragraphs (6) through (17) as 
                paragraphs (5) through (16), respectively; and
                    (H) by adding at the end the following:
            ``(17) to permit tribal governments receiving direct law 
        enforcement services from the Bureau of Indian Affairs to 
        access the program under this section on behalf of the Bureau 
        for use in accordance with paragraphs (1) through (16).''.
            (2) in subsection (i), by striking ``The authority'' and 
        inserting ``Except as provided in subsection (j), the 
        authority''; and
            (3) by adding at the end the following:
    ``(j) Grants to Indian Tribes.--
            ``(1) In general.--Notwithstanding subsection (i) and 
        section 1703, and in acknowledgment of the Federal nexus and 
        distinct Federal responsibility to address and prevent crime in 
        Indian country, the Attorney General shall provide grants under 
        this section to Indian tribal governments, for fiscal year 2010 
        and any fiscal year thereafter, for such period as the Attorney 
        General determines to be appropriate to assist the Indian 
        tribal governments in carrying out the purposes described in 
        subsection (b).
            ``(2) Priority of funding.--In providing grants to Indian 
        tribal governments under this subsection, the Attorney General 
        shall take into consideration reservation crime rates and 
        tribal law enforcement staffing needs of each Indian tribal 
        government.
            ``(3) Federal share.--Because of the Federal nature and 
        responsibility for providing public safety on Indian land, the 
        Federal share of the cost of any activity carried out using a 
        grant under this subsection shall be 100 percent.
            ``(4) Authorization of appropriations.--There are 
        authorized to be appropriated such sums as are necessary to 
        carry out this subsection for each of fiscal years 2010 through 
        2014.
    ``(k) Report.--Not later than 180 days after the date of enactment 
of this subsection, the Attorney General shall submit to Congress a 
report describing the extent and effectiveness of the Community 
Oriented Policing (COPS) initiative as applied in Indian country, 
including particular references to--
            ``(1) the problem of intermittent funding;
            ``(2) the integration of COPS personnel with existing law 
        enforcement authorities; and
            ``(3) an explanation of how the practice of community 
        policing and the broken windows theory can most effectively be 
        applied in remote tribal locations.''.

SEC. 404. TRIBAL JAILS PROGRAM.

    (a) In General.--Section 20109 of the Violent Crime Control and Law 
Enforcement Act of 1994 (42 U.S.C. 13709) is amended by striking 
subsection (a) and inserting the following:
    ``(a) Reservation of Funds.--Notwithstanding any other provision of 
this part, of amounts made available to the Attorney General to carry 
out programs relating to offender incarceration, the Attorney General 
shall reserve $35,000,000 for each of fiscal years 2010 through 2014 to 
carry out this section.''.
    (b) Regional Detention Centers.--
            (1) In general.--Section 20109 of the Violent Crime Control 
        and Law Enforcement Act of 1994 (42 U.S.C. 13709) is amended by 
        striking subsection (b) and inserting the following:
    ``(b) Grants to Indian Tribes.--
            ``(1) In general.--From the amounts reserved under 
        subsection (a), the Attorney General shall provide grants--
                    ``(A) to Indian tribes for purposes of--
                            ``(i) construction and maintenance of jails 
                        on Indian land for the incarceration of 
                        offenders subject to tribal jurisdiction;
                            ``(ii) entering into contracts with private 
                        entities to increase the efficiency of the 
                        construction of tribal jails; and
                            ``(iii) developing and implementing 
                        alternatives to incarceration in tribal jails;
                    ``(B) to Indian tribes for the construction of 
                tribal justice centers that combine tribal police, 
                courts, and corrections services to address violations 
                of tribal civil and criminal laws;
                    ``(C) to consortia of Indian tribes for purposes of 
                constructing and operating regional detention centers 
                on Indian land for long-term incarceration of offenders 
                subject to tribal jurisdiction, as the applicable 
                consortium determines to be appropriate.
            ``(2) Priority of funding.--in providing grants under this 
        subsection, the Attorney General shall take into consideration 
        applicable--
                    ``(A) reservation crime rates;
                    ``(B) annual tribal court convictions; and
                    ``(C) bed space needs.
            ``(3) Federal share.--Because of the Federal nature and 
        responsibility for providing public safety on Indian land, the 
        Federal share of the cost of any activity carried out using a 
        grant under this subsection shall be 100 percent.''.
            (2) Conforming amendment.--Section 20109(c) of the Violent 
        Crime Control and Law Enforcement Act of 1994 (42 U.S.C. 
        13709(c)) is amended by inserting ``or consortium of Indian 
        tribes, as applicable,'' after ``Indian tribe''.
            (3) Long-term plan.--Section 20109 of the Violent Crime 
        Control and Law Enforcement Act of 1994 (42 U.S.C. 13709) is 
        amended by adding at the end the following:
    ``(d) Long-Term Plan.--Not later than 1 year after the date of 
enactment of this subsection, the Attorney General, in coordination 
with the Bureau of Indian Affairs and in consultation with tribal 
leaders, tribal law enforcement officers, and tribal corrections 
officials, shall submit to Congress a long-term plan to address 
incarceration in Indian country, including a description of--
            ``(1) proposed activities for construction of detention 
        facilities (including regional facilities) on Indian land;
            ``(2) proposed activities for construction of additional 
        Federal detention facilities on Indian land;
            ``(3) proposed activities for contracting with State and 
        local detention centers, with tribal government approval;
            ``(4) proposed alternatives to incarceration, developed in 
        cooperation with tribal court systems; and
            ``(5) such other alternatives as the Attorney General, in 
        coordination with the Bureau of Indian Affairs and in 
        consultation with Indian tribes, determines to be necessary.''.

SEC. 405. TRIBAL PROBATION OFFICE LIAISON PROGRAM.

    Title II of the Indian Tribal Justice Technical and Legal 
Assistance Act of 2000 (25 U.S.C. 3681 et seq.) is amended by adding at 
the end the following:

``SEC. 203. ASSISTANT PAROLE AND PROBATION OFFICERS.

    ``To the maximum extent practicable, the Director of the 
Administrative Office of the United States Courts, in coordination with 
the Office of Tribal Justice and the Director of the Office of Justice 
Services, shall--
            ``(1) appoint individuals residing in Indian country to 
        serve as assistant parole or probation officers for purposes of 
        monitoring and providing service to Federal prisoners residing 
        in Indian country; and
            ``(2) provide substance abuse, mental health, and other 
        related treatment services to offenders residing on Indian 
        land.''.

SEC. 406. TRIBAL YOUTH PROGRAM.

    (a) Incentive Grants for Local Delinquency Prevention Programs.--
            (1) In general.--Section 504 of the Juvenile Justice and 
        Delinquency Prevention Act of 1974 (42 U.S.C. 5783) is 
        amended--
                    (A) in subsection (a), by inserting ``, or to 
                Indian tribes under subsection (d)'' after ``subsection 
                (b)''; and
                    (B) by adding at the end the following:
    ``(d) Grants for Tribal Delinquency Prevention and Response 
Programs.--
            ``(1) In general.--The Administrator shall make grants 
        under this section, on a competitive basis, to eligible Indian 
        tribes or consortia of Indian tribes, as described in paragraph 
        (2)--
                    ``(A) to support and enhance--
                            ``(i) tribal juvenile delinquency 
                        prevention services; and
                            ``(ii) the ability of Indian tribes to 
                        respond to, and care for, juvenile offenders; 
                        and
                    ``(B) to encourage accountability of Indian tribal 
                governments with respect to preventing juvenile 
                delinquency and responding to, and caring for, juvenile 
                offenders.
            ``(2) Eligible indian tribes.--To be eligible to receive a 
        grant under this subsection, an Indian tribe or consortium of 
        Indian tribes shall submit to the Administrator an application 
        in such form and containing such information as the 
        Administrator may require.
            ``(3) Priority of funding.--In providing grants under this 
        subsection, the Administrator shall take into consideration, 
        with respect to the reservation communities to be served--
                    ``(A) juvenile crime rates;
                    ``(B) dropout rates; and
                    ``(C) percentage of at-risk youth.''.
            (2) Authorization of appropriations.--Section 505 of the 
        Juvenile Justice and Delinquency Prevention Act of 1974 (42 
        U.S.C. 5784) is amended by striking ``fiscal years 2004, 2005, 
        2006, 2007, and 2008'' and inserting ``each of fiscal years 
        2010 through 2014''.
    (b) Coordinating Council on Juvenile Justice and Delinquency 
Prevention.--Section 206(a)(2) of the Juvenile Justice and Delinquency 
Prevention Act of 1974 (42 U.S.C. 5616(a)(2)) is amended--
            (1) in subparagraph (A), by striking ``Nine'' and inserting 
        ``Ten''; and
            (2) in subparagraph (B), by adding at the end the 
        following:
                            ``(iv) One member shall be appointed by the 
                        Chairman of the Committee on Indian Affairs of 
                        the Senate, in consultation with the Vice 
                        Chairman of that Committee.''.

 TITLE V--INDIAN COUNTRY CRIME DATA COLLECTION AND INFORMATION SHARING

SEC. 501. TRACKING OF CRIMES COMMITTED IN INDIAN COUNTRY.

    (a) Gang Violence.--Section 1107 of the Violence Against Women and 
Department of Justice Reauthorization Act of 2005 (28 U.S.C. 534 note; 
Public Law 109-162) is amended--
            (1) in subsection (a)--
                    (A) by redesignating paragraphs (8) through (12) as 
                paragraphs (9) through (13), respectively;
                    (B) by inserting after paragraph (7) the following:
            ``(8) the Office of Justice Services of the Bureau of 
        Indian Affairs;'';
                    (C) in paragraph (9) (as redesignated by 
                subparagraph (A)), by striking ``State'' and inserting 
                ``tribal, State,''; and
                    (D) in paragraphs (10) through (12) (as 
                redesignated by subparagraph (A)), by inserting 
                ``tribal,'' before ``State,'' each place it appears; 
                and
            (2) in subsection (b), by inserting ``tribal,'' before 
        ``State,'' each place it appears.
    (b) Bureau of Justice Statistics.--Section 302 of the Omnibus Crime 
Control and Safe Streets Act of 1968 (42 U.S.C. 3732) is amended--
            (1) in subsection (c)--
                    (A) in paragraph (1), by inserting ``, Indian 
                tribes,'' after ``contracts with'';
                    (B) in each of paragraphs (3) through (6), by 
                inserting ``tribal,'' after ``State,'' each place it 
                appears;
                    (C) in paragraph (7), by inserting ``and in Indian 
                country'' after ``States'';
                    (D) in paragraph (9), by striking ``Federal and 
                State Governments'' and inserting ``Federal Government 
                and State and tribal governments'';
                    (E) in each of paragraphs (10) and (11), by 
                inserting ``, tribal,'' after ``State'' each place it 
                appears;
                    (F) in paragraph (13), by inserting ``, Indian 
                tribes,'' after ``States'';
                    (G) in paragraph (17)--
                            (i) by striking ``State and local'' and 
                        inserting ``State, tribal, and local''; and
                            (ii) by striking ``State, and local'' and 
                        inserting ``State, tribal, and local'';
                    (H) in paragraph (18), by striking ``State and 
                local'' and inserting ``State, tribal, and local'';
                    (I) in paragraph (19), by inserting ``and tribal'' 
                after ``State'' each place it appears;
                    (J) in paragraph (20), by inserting ``, tribal,'' 
                after ``State''; and
                    (K) in paragraph (22), by inserting ``, tribal,'' 
                after ``Federal'';
            (2) in subsection (d)--
                    (A) by redesignating paragraphs (1) through (6) as 
                subparagraphs (A) through (F), respectively, and 
                indenting the subparagraphs appropriately;
                    (B) by striking ``To insure'' and inserting the 
                following:
            ``(1) In general.--To ensure''; and
                    (C) by adding at the end the following:
            ``(2) Consultation with indian tribes.--The Director, 
        acting jointly with the Assistant Secretary for Indian Affairs 
        (acting through the Director of the Office of Law Enforcement 
        Services) and the Director of the Federal Bureau of 
        Investigation, shall work with Indian tribes and tribal law 
        enforcement agencies to establish and implement such tribal 
        data collection systems as the Director determines to be 
        necessary to achieve the purposes of this section.'';
            (3) in subsection (e), by striking ``subsection (d)(3)'' 
        and inserting ``subsection (d)(1)(C)'';
            (4) in subsection (f)--
                    (A) in the subsection heading, by inserting ``, 
                Tribal,'' after ``State''; and
                    (B) by inserting ``, tribal,'' after ``State''; and
            (5) by adding at the end the following:
    ``(g) Report to Congress on Crimes in Indian Country.--Not later 
than 1 year after the date of enactment of this subsection, and 
annually thereafter, the Director shall submit to Congress a report 
describing the data collected and analyzed under this section relating 
to crimes in Indian country.''.

SEC. 502. GRANTS TO IMPROVE TRIBAL DATA COLLECTION SYSTEMS.

    Section 3 of the Indian Law Enforcement Reform Act (25 U.S.C. 2802) 
is amended by adding at the end the following:
    ``(f) Grants To Improve Tribal Data Collection Systems.--
            ``(1) Grant program.--The Secretary, acting through the 
        Director of the Office of Justice Services of the Bureau and in 
        coordination with the Attorney General, shall establish a 
        program under which the Secretary shall provide grants to 
        Indian tribes for activities to ensure uniformity in the 
        collection and analysis of data relating to crime in Indian 
        country.
            ``(2) Regulations.--The Secretary, acting through the 
        Director of the Office of Justice Services of the Bureau, in 
        consultation with tribal governments and tribal justice 
        officials, shall promulgate such regulations as are necessary 
        to carry out the grant program under this subsection.''.

SEC. 503. CRIMINAL HISTORY RECORD IMPROVEMENT PROGRAM.

    Section 1301(a) of the Omnibus Crime Control and Safe Streets Act 
of 1968 (42 U.S.C. 3796h(a)) is amended by inserting ``, tribal,'' 
after ``State''.

    TITLE VI--DOMESTIC VIOLENCE AND SEXUAL ASSAULT PROSECUTION AND 
                               PREVENTION

SEC. 601. PRISONER RELEASE AND REENTRY.

    Section 4042 of title 18, United States Code, is amended--
            (1) in subsection (a)(4), by inserting ``, tribal,'' after 
        ``State'';
            (2) in subsection (b)(1), in the first sentence, by 
        striking ``officer of the State and of the local jurisdiction'' 
        and inserting ``officers of each State, tribal, and local 
        jurisdiction''; and
            (3) in subsection (c)--
                    (A) in paragraph (1)--
                            (i) in subparagraph (A), by striking 
                        ``officer of the State and of the local 
                        jurisdiction'' and inserting ``officers of each 
                        State, tribal, and local jurisdiction''; and
                            (ii) in subparagraph (B), by inserting ``, 
                        tribal,'' after ``State'' each place it 
                        appears; and
                    (B) in paragraph (2)--
                            (i) by striking ``(2) Notice'' and 
                        inserting the following:
            ``(2) Requirements.--
                    ``(A) In general.--A notice'';
                            (ii) in the second sentence, by striking 
                        ``For a person who is released'' and inserting 
                        the following:
                    ``(B) Released persons.--For a person who is 
                released'';
                            (iii) in the third sentence, by striking 
                        ``For a person who is sentenced'' and inserting 
                        the following:
                    ``(C) Persons on probation.--For a person who is 
                sentenced'';
                            (iv) in the fourth sentence, by striking 
                        ``Notice concerning'' and inserting the 
                        following:
                    ``(D) Released persons required to register.--
                            ``(i) In general.--A notice concerning''; 
                        and
                            (v) in subparagraph (D) (as designated by 
                        clause (iv)), by adding at the end the 
                        following:
                            ``(ii) Persons residing in indian 
                        country.--For a person described in paragraph 
                        (3) the expected place of residence of whom is 
                        potentially located in Indian country, the 
                        Director of the Bureau of Prisons or the 
                        Director of the Administrative Office of the 
                        United States Courts, as appropriate, shall--
                                    ``(I) make all reasonable and 
                                necessary efforts to determine whether 
                                the residence of the person is located 
                                in Indian country; and
                                    ``(II) ensure that the person is 
                                registered with the law enforcement 
                                office of each appropriate jurisdiction 
                                before release from Federal custody.''.

SEC. 602. DOMESTIC AND SEXUAL VIOLENT OFFENSE TRAINING.

    Section 3(c)(9) of the Indian Law Enforcement Reform Act (25 U.S.C. 
2802(c)(9)) (as amended by section 101(a)(2)) is amended by inserting 
before the semicolon at the end the following: ``, including training 
to properly interview victims of domestic and sexual violence and to 
collect, preserve, and present evidence to Federal and tribal 
prosecutors to increase the conviction rate for domestic and sexual 
violence offenses for purposes of addressing and preventing domestic 
and sexual violent offenses''.

SEC. 603. TESTIMONY BY FEDERAL EMPLOYEES IN CASES OF RAPE AND SEXUAL 
                    ASSAULT.

    The Indian Law Enforcement Reform Act (25 U.S.C. 2801 et seq.) is 
amended by adding at the end the following:

``SEC. 11. TESTIMONY BY FEDERAL EMPLOYEES IN CASES OF RAPE AND SEXUAL 
                    ASSAULT.

    ``(a) Approval of Employee Testimony.--The Director of the Office 
of Justice Services or the Director of the Indian Health Service, as 
appropriate (referred to in this section as the `Director concerned'), 
shall approve or disapprove, in writing, any request or subpoena for a 
law enforcement officer, sexual assault nurse examiner, or other 
employee under the supervision of the Director concerned to provide 
testimony in a deposition, trial, or other similar proceeding regarding 
information obtained in carrying out the official duties of the 
employee.
    ``(b) Requirement.--The Director concerned shall approve a request 
or subpoena under subsection (a) if the request or subpoena does not 
violate the policy of the Department of the Interior to maintain strict 
impartiality with respect to private causes of action.
    ``(c) Treatment.--If the Director concerned fails to approve or 
disapprove a request or subpoena by the date that is 30 days after the 
date of receipt of the request or subpoena, the request or subpoena 
shall be considered to be approved for purposes of this section.''.

SEC. 604. COORDINATION OF FEDERAL AGENCIES.

    The Indian Law Enforcement Reform Act (25 U.S.C. 2801 et seq.) (as 
amended by section 603) is amended by adding at the end the following:

``SEC. 12. COORDINATION OF FEDERAL AGENCIES.

    ``(a) In General.--The Secretary, in coordination with the Attorney 
General, Federal and tribal law enforcement agencies, the Indian Health 
Service, and domestic violence or sexual assault victim organizations, 
shall develop appropriate victim services and victim advocate training 
programs--
            ``(1) to improve domestic violence or sexual abuse 
        responses;
            ``(2) to improve forensic examinations and collection;
            ``(3) to identify problems or obstacles in the prosecution 
        of domestic violence or sexual abuse; and
            ``(4) to meet other needs or carry out other activities 
        required to prevent, treat, and improve prosecutions of 
        domestic violence and sexual abuse.
    ``(b) Report.--Not later than 2 years after the date of enactment 
of this section, the Secretary shall submit to the Committee on Indian 
Affairs of the Senate and the Committee on Natural Resources of the 
House of Representatives a report that describes, with respect to the 
matters described in subsection (a), the improvements made and needed, 
problems or obstacles identified, and costs necessary to address the 
problems or obstacles, and any other recommendations that the Secretary 
determines to be appropriate.''.

SEC. 605. SEXUAL ASSAULT PROTOCOL.

    Title VIII of the Indian Health Care Improvement Act is amended by 
inserting after section 802 (25 U.S.C. 1672) the following:

``SEC. 803. POLICIES AND PROTOCOL.

    ``The Director of Service, in coordination with the Director of the 
Office on Violence Against Women of the Department of Justice, in 
consultation with Indian Tribes and Tribal Organizations, and in 
conference with Urban Indian Organizations, shall develop standardized 
sexual assault policies and protocol for the facilities of the Service, 
based on similar protocol that has been established by the Department 
of Justice.''.
                                 <all>



    Mr. Scott. It is now my pleasure to recognize the acting 
Ranking Member of the Subcommittee, gentleman from California, 
Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. I am 
sitting here in the stead of Mr. Gohmert, who will be here 
shortly. Unfortunately I am a Member of the Task Force on 
Impeachment and we are considering the impeachment of a Federal 
judge from Louisiana, and we have another hearing that I must 
attend a little bit later.
    But I thank you for having this hearing examining H.R. 
1924, the ``Tribal Law and Order Act of 2009.'' As I recall, 
this, I believe, is the first hearing the Subcommittee has held 
on the issue of criminal law enforcement in Indian country in 
some time. I don't recall a hearing this year or last year.
    And so I am very pleased that we are doing this. It is a 
matter this Subcommittee needs to spend time on as the rising 
crime rate and apparent inadequate law enforcement on Indian 
reservations have been a serious concern for many years.
    As the former attorney general of California and a Member 
whose district contains Indian country I have some familiarity 
with tribal issues. There are 564 federally-recognized tribes 
in the United States comprised of 1.9 million American Indians 
and Alaska Natives, with tribal lands covering about 56 million 
acres in the continental United States.
    But Indian country is disparate country. What I mean by 
that is there are very many differences. In California we 
have--I believe it is now over 110 maybe approaching 120 
different recognized tribes and bands, most of which live on 
small parcels of land--rancherias--very different than what you 
find in some other States that have large expanses.
    We are a PL 280 State, as the gentleman suggested, with 
general criminal supervision law enforcement by State law. And 
there may be gaps there but I think that that is not a bad 
model and I am very interested in how this--the changes 
intended in this law might impact our State.
    Concurrent jurisdiction sometimes is an additional 
protection. I would not want to see it, though, advanced in a 
certain way that would interfere with prompt and timely 
investigation and prosecution of crimes by local jurisdiction 
under State law, as is currently the case, if there is no 
problem there.
    As you stated, the jurisdiction over criminal matters in 
Indian country is a responsibility shared by tribal, State, and 
Federal law enforcement officials in a very complex manner. In 
fact, the reservation that is in one of my counties crosses 
over State lines.
    A good part of the land is in Nevada; some of the land is 
in California. I believe more of the members of that tribe 
actually live in Nevada than in California.
    I have worked in the past on how we deal with cross-
jurisdictional matters and how we try and work with the tribal 
law enforcement in conjunction with local law enforcement. It 
is not an easy question and I believe it is important for us to 
have these kinds of hearings to understand what is done.
    Sometimes you have peculiar circumstances. I recall at one 
point in time in California when the Federal Government was not 
enforcing the laws dealing with gambling, and the interesting 
thing was that local law enforcement could go in and do general 
prosecution on Indian lands but they could not do anything with 
respect to illegal gambling on the Indian lands.
    And so you had the anomalous situation where a local 
sheriff would go in if there were an act of violence at a 
gambling establishment on the lands but could do nothing about 
illegal gambling that was going on there. I mean, those things 
have been sorted out better, but it just shows you the 
confusion that can arise when you have concurrent jurisdiction. 
And in some cases the result was an inability or a failure to 
enforce laws at all.
    And so this is a very interesting, very important thing for 
us to talk about. And one of the things that we need to do is 
to make sure our colleagues when we deal with this issue 
understand the unique status that tribes have. They hold a 
unique status of a dependent, domestic, sovereign nation within 
the United States. Nobody else has that.
    As a result, many Members don't understand why we have 
these kinds of conflicts of law and why our examination is 
necessary. So I thank the Chairman for bringing us to this 
point and I am very interested in looking at the material. And 
I promise that while I might have to leave for a good portion 
of this for the impeachment proceedings I will examine this 
information and follow this, and hopefully work with you and 
others so that we can come to completion on this.
    Mr. Scott. Thank you.
    Our first panel consists of the sponsor of H.R. 1924, the 
gentlelady from South Dakota, Ms. Stephanie Herseth Sandlin. 
She is the at-large Member from South Dakota and is serving her 
fourth term.
    She serves on the Committees on Agriculture, Veterans' 
Affairs, and Natural Resources, and chairs the Veterans' 
Affairs Subcommittee on Economic Opportunity. She also serves 
on the Select Committee on Energy Independence and Global 
Warming.
    Ms. Herseth Sandlin, it is good to see you. You know the 
drill.

    TESTIMONY OF THE HONORABLE STEPHANIE HERSETH SANDLIN, A 
   REPRESENTATIVE IN CONGRESS FROM THE STATE OF SOUTH DAKOTA

    Ms. Herseth Sandlin. Thank you very much, Chairman Scott, 
for holding today's hearing and for your interest in the Tribal 
Law and Order Act and for allowing me to testify in support of 
this legislation.
    I want to thank Mr. Lungren for his comments and his 
understanding and perspective as it relates to the impact of 
law enforcement across the country and the different tribes 
that we represent.
    As South Dakota's lone Member of the U.S. House of 
Representatives, I have the privilege of representing nine 
sovereign Sioux tribes. The Tribal Law and Order Act is a 
bipartisan and bicameral initiative to improve coordination 
among tribal, State, and Federal law enforcement agencies and 
increase accountability standards.
    Senator Byron Dorgan, who is Chairman of the Senate 
Committee on Indian Affairs, has introduced nearly identical 
legislation in the Senate that has been approved by the 
Committee, and President Obama announced at the Tribal Nations 
Conference held in Washington, D.C., here last month that, ``I 
support the Tribal Law and Order Act and look forward to 
Congress passing it so I can sign it into law.''
    I would especially like to thank the U.S. Department of 
Justice and Attorney General Holder for the priority the 
Department has given to tribal justice issues. The department 
held a tribal nations listening session on public safety and 
law enforcement in Minneapolis in October on other places 
across the country, which, together with the Tribal Nations 
Summit in Washington, DC, and DOJ's ongoing efforts to work 
with Congress to fashion the very best tribal law and order 
bill, that demonstrates the President and his Administration's 
commitment to working with tribes on law enforcement priorities 
that we share in common.
    I am very glad to see that Associate Attorney General Tom 
Perrelli is here today to testify, and I thank him for all of 
the initiative and attention that he himself has given and 
devoted to these issues throughout his career, including 
speaking at the listening session in Minneapolis and the Tribal 
Nations Summit. I am particularly pleased at his candor that 
the Federal Government must do better and that he is 
experienced working with large, land-based tribes, like the 
Oglala Sioux tribes in South Dakota.
    As you know, the Federal Government has a unique 
relationship with the 562 federally-recognized American Indian 
and Alaska Native tribes. This government-to-government 
relationship is established by our founders in the U.S. 
Constitution, recognized by hundreds of treaties, and 
reaffirmed through executive orders, judicial decisions, and 
congressional action. Fundamentally, this relationship 
establishes the responsibilities to be carried out by one 
sovereign to the other.
    Native American family, like all families in our country, 
deserve a basic sense of safety and security in their 
community. Law enforcement is one of the Federal Government's 
trust obligations to federally-recognized tribes. Yet, as the 
tribes across the country know all too well, on many counts we 
are failing to meet that obligation and have done so for too 
many years.
    For instance, as the Chairman noted in his opening remarks, 
Amnesty International has reported that American Indian and 
Alaska Native women are more than two and a half times more 
likely to be raped or sexually assaulted than women in the 
United States in general. Yet, the majority of those crimes go 
unpunished.
    Moreover, fewer than 3,000 law enforcement officers patrol 
more than 56 million acres of Indian country. That reflects 
less than one half of the law enforcement presence in 
comparable rural communities.
    The situation is particularly challenging--I think Mr. 
Lungren noted--for large, land-based reservations in South 
Dakota and elsewhere. The kinds of problems that arise include 
the case of a young woman living on the Pine Ridge reservation 
who had received a restraining order for an ex-boyfriend who 
had battered her. One night she was home alone and woke up as 
he attempted to break into her home with a crow bar.
    She immediately called the police, but due to a lack of 
landlines for telephones and spotty cell phone coverage the 
call was cut off three times before she could report the 
situation to the dispatcher. The nearest officer was over 40 
miles away.
    Even though the police officer who took the call started 
driving to her home at 80 miles an hour on roads that the 
quality of which--well, if you traveled those roads you would 
understand why traveling over 60 miles an hour is a hazard and 
the high incidence of traffic accidents that we have and deaths 
that result. But even with his efforts, by the time he arrived 
the woman was severely bloodied and beaten and the perpetrator 
had escaped.
    In addition to the situations faced by victims of violent 
crime these officers frequently have no backup. And again, just 
to put the expansive nature of this territory into perspective, 
just the Cheyenne River Sioux tribe that I represent their 
reservation is comparable to the size of the State of 
Connecticut.
    The Tribal Law and Order Act would improve law enforcement 
efforts in Indian country by clarifying the responsibilities of 
Federal, State, tribal, and local governments with respect to 
crimes committed on tribal--in tribal communities. It would 
increase coordination and communication among Federal, State, 
tribal, and local law enforcement agencies.
    It would empower tribal governments with the authority, 
resources, and information necessary to effectively provide for 
the public safety in tribal communities, reduce the prevalence 
of violent crime in tribal communities, and combat violence 
against Indian and Alaska Native women.
    It would target youth prevention by authorizing funding for 
summer education programs and at-risk youth treatment centers, 
address and prevent drug trafficking and reduce rates of 
alcohol and drug addiction in Indian country, and increase and 
standardize the collection of criminal data and the sharing of 
criminal history information among State, Federal, and tribal 
officials responsible for responding to and investigating 
crimes in tribal communities.
    One example of an improvement the bill would make is the 
provision for special law enforcement commissions. Currently 
only Federal agents, such as the FBI, can make arrests for 
rapes on reservations in cases in which the perpetrator is non-
Indian. In many cases those FBI officers can be hundreds of 
miles from a reservation.
    A provision in this bill would expand a training program to 
give special law enforcement commissions to tribal law 
enforcement officers. With this special commission a tribal law 
enforcement officer can be federally deputized to arrest any 
person on tribal land who commits a Federal crime such as rape, 
murder, or drug trafficking.
    The bill also streamlines the process for IHS officials to 
testify in criminal cases, such as rape or sexual assault 
cases, before a tribal court. In order for an IHS official or 
BIA officer to answer a subpoena to testify in court approval 
must be given by someone in Washington, D.C.
    The result is that some tribal court criminal cases are 
dropped because the person who conducted the rape examination 
or the officer who answered the distress call doesn't show up 
in tribal court. That would be changed so that if approval 
isn't given within 30 days the request to testify will be 
considered approved.
    By expanding training programs to grant tribal law 
enforcement officers authority to arrest all suspects of crime 
on tribal land and making it easier for IHS experts to testify 
in court we can slow the flood of crimes that go unpunished.
    While there will be no simple or quick fix, this 
comprehensive legislation is a step in the right direction. By 
passing this legislation we will make important strides in 
improving law enforcement in Indian country during this 
Congress.
    I thank you again, Chairman Scott, for this opportunity to 
testify on behalf of the Tribal Law and Order Act of 2009 and 
for helping to advance this important bill on behalf of the 
tribal communities across Indian country that are in desperate 
need of improved law enforcement.
    [The prepared statement of Ms. Herseth Sandlin follows:]
     Prepared Statement of the Honorable Stephanie Herseth Sandlin

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you very much. Thank you.
    Are there any questions?
    Thank you. And we will be proceeding with the next panel. 
Thank you for your sponsorship of this, Ms. Herseth Sandlin.
    And we will next call our next witness. The next panel 
consists of the Associate Attorney General in the United States 
Department of Justice, Tom Perrelli.
    As the third ranking official in the department he oversees 
what is traditionally described as the Department's civil 
litigations component. He also receives much of the 
Department's work supporting State, local, and tribal law 
enforcement efforts. He graduated from Harvard Law School magna 
cum laude and is serving his sixth tour in the Department of 
Justice.
    Mr. Perrelli?

   TESTIMONY OF THE HONORABLE THOMAS J. PERRELLI, ASSOCIATE 
    ATTORNEY GENERAL, UNITED STATES DEPARTMENT OF JUSTICE, 
                         WASHINGTON, DC

    Mr. Perrelli. Good morning, Chairman Scott, Acting Ranking 
Member Lungren, and Members of the Subcommittee. Thank you for 
having me here today to testify about the Tribal Law and Order 
Act of 2009.
    It is an important area and I would like to thank 
Representative Herseth Sandlin for her leadership in this area.
    And I also want to thank the Committee for taking on this 
issue.
    By any standard we have an enormous public safety problem 
in Indian country. As those who have worked in Indian country 
know and as Congressman Lungren said, enforcing the law is 
complicated, due to jurisdictional complexities, lack of 
resources, and the basic challenge--in many locations--that 
comes from distance. And the challenges of enforcing the law in 
California are different from those in South Dakota, and 
different again from those in Alaska.
    But I want to make something clear: We need to make Indian 
country safer, and I think we can do so. The problems today are 
severe.
    American Indians and Alaska Natives suffer from violent 
crime at far greater rates than other Americans. Some tribes 
have experienced crime rates of two, three, four, even ten 
times the national average.
    Violence against native women and children is a particular 
problem, with some counties facing murder rates of native women 
well over 10 times the national average. Reservation and clinic 
research show that there are high rates of intimate partner 
violence, and those levels of violence have continued for 
years.
    The leadership of the Justice Department is absolutely 
committed to doing better. The Federal Government has a trust 
responsibility to Native Americans, and the reality is that in 
many Indian communities, the Federal Government has the primary 
law enforcement role. But in that role we are also partners 
with tribal prosecutors, law enforcement, courts, victim 
services providers, and with State and local authorities.
    All of us need to work together more effectively to improve 
the lives of Native Americans and make those communities safer. 
The Tribal Law and Order bill is key to this effort because it 
focuses on a number of critical areas, including building 
tribal capacity to play an increasing role in public safety, 
encouraging partnership and communication among tribal, State, 
and Federal actors, addressing the violence against native 
women that has devastated many communities, and reauthorizing 
important programs that address public safety and improve the 
lives of tribal youth.
    Now as I have said, the Department of Justice, at its 
highest levels, is committed to this effort. As part of that 
the Attorney General convened a listening session, as 
Congresswoman Herseth Sandlin explained, to discuss public 
safety and law enforcement. Leaders of all the federally-
recognized tribes were invited.
    And what we heard there is simply unacceptable. We were 
told by a veteran South Dakota prosecutor that in one 
neighborhood, nearly every other house had been a crime scene 
in the last 10 years. We heard from American Indian women about 
reservations in which women who had not been sexually assaulted 
were the exception.
    We heard from tribal law enforcement officials who were so 
strapped on a reservation the size of Delaware that they can 
have only two officers on duty at any given time, putting those 
officers hours away from likely crime scenes. And we have heard 
from a tribal judge about the frustration of learning that a 
domestic violence perpetrator who had been given no jail time 
had more than 20 prior arrests for domestic violence, but the 
judge simply was not able to access a database that would have 
told him that.
    These issues are real priorities for the Department of 
Justice. Both the Deputy Attorney General and I have extensive 
personal experience in Indian country, having been involved in 
efforts to improve public safety there over the years. I 
personally consider the efforts of the CIRCLE Project, which 
was a project that attempted to bring comprehensive approaches 
to problems in Indian country with as many partners as possible 
in Northern Cheyenne, Oglala Sioux, and Zuni Pueblo areas, to 
be one of the most fulfilling aspects of my career.
    With a new focus, we at the Justice Department are hard at 
work to develop sustainable, effective, and efficient 
strategies, and I would by happy to talk about the things that 
we are already doing. We believe the Tribal Law and Order Act 
would make important changes, and we strongly support S. 797, 
the Senate version of this legislation, which is sponsored by 
Senator Dorgan, and we look forward with this Subcommittee to 
further develop H.R. 1924. I urge the Subcommittee to do all 
that it can to move the measure forward so that it can be 
signed into law as soon as possible.
    Thank you very much, and I look forward to questions.
    [The prepared statement of Mr. Perrelli follows:]
         Prepared Statement of the Honorable Thomas J. Perrelli

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    And I now recognize myself for 5 minutes of questions.
    You indicated your support of the Senate bill. Do you not 
support the House bill?
    Mr. Perrelli. I think we have been working with the Senate 
to make improvements on the bill. There are a number of areas 
where I think we have been able to do that.
    That includes areas such as ensuring a right to counsel. 
That includes trying to create the right set of incentives in 
the area of declination reports and reporting on decision-
making by the Federal Government. And those are just a couple 
of the areas.
    So we think that S. 797 is--represents the next stage of 
development and we look forward to working with this Committee.
    Mr. Scott. What is the status of 797?
    Mr. Perrelli. It is my understanding that they are looking 
at a manager's amendment to that, but I don't think I have seen 
a copy of that.
    Mr. Scott. In Committee?
    Mr. Perrelli. I think it is out of Committee, but--it is 
out of Committee----
    Mr. Scott. But the changes have been made in Committee?
    Mr. Perrelli. Correct.
    Mr. Scott. Okay.
    Are there challenges in the prosecution involving 
evidence--the arrest process, and evidence, and chain of 
custody of evidence--are there challenges in prosecution in 
that area?
    Mr. Perrelli. There are significant challenges in Indian 
country. Some of them are presented by sheer distance--the 
amount of time it takes to get to a crime scene when evidence 
may have spoiled.
    And there is simply the challenge of the lack of resources, 
whether insufficient number of police officers or insufficient 
resources for forensics. So those are serious challenges and 
they certainly affect the ability to prosecute cases in Indian 
country.
    Mr. Scott. What about number of prosecutors and indigent 
defense--attorneys for defendants?
    Mr. Perrelli. I think both of those--there are challenges 
in both of those areas. While some tribes do provide counsel to 
criminal defendants, we certainly think that particularly if 
the Congress enacts the Tribal Law and Order Act and increases 
potential sentences to 3 years that it will be important to 
ensure counsel to indigent defendants.
    On the prosecution side I think we are actively engaged in 
trying to determine what additional resources need to be put 
put in Indian country. A major initiative for the Department is 
to move law enforcement and prosecutorial resources closer to 
the reservations where they are needed so that some of the 
problems of distance we could cut down.
    Mr. Scott. In tribal trials are there trials by jury?
    Mr. Perrelli. Not every trial is trial by jury, but there 
are trials by jury in many tribal courts. And the juries--
different tribes have different practices and procedures but 
some have all Native American jurors, others have a mix of 
native and non-native jurors.
    Mr. Scott. And who are the judges and what are their 
qualifications?
    Mr. Perrelli. They are tribal court judges. They are 
selected, again, in different ways by different communities.
    My experience over the last decade is that there has been 
an enormous improvement in the quality of tribal court judges. 
We spent the last several months working with a number of them 
on developing the right approach for the Justice Department to 
take in Indian country.
    Mr. Scott. A judge is legally--to have formal legal 
training?
    Mr. Perrelli. Many are, but some are not.
    Mr. Scott. What about services after conviction--services 
like drug courts, alcohol safety courts? Are those available in 
tribal courts and are they available in Federal courts?
    Mr. Perrelli. In many tribal communities there are wellness 
courts or drug courts that have been, I think, proven very 
effective, and we have seen some terrific, promising practices. 
And I know that when I meet with tribal leaders, those who 
don't have such courts very much want to develop them in their 
jurisdiction.
    Mr. Scott. Have you proposed a budget for prevention law 
enforcement, criminal defense and prosecution? Have you 
presented a budget to solve some of these problems?
    Mr. Perrelli. We are engaged in the 2011 budget process and 
are very focused on these issues. And I agree with, I think, 
the premise of your question, which is we need to look at this 
comprehensively.
    It can't just be about putting police officers on the 
street and prosecutors. One has to fund the indigent defense; 
one also has to fund prevention and reentry strategies. Without 
putting all of those pieces together, we won't do the best job 
possible.
    Mr. Scott. And are you developing a budget?
    Mr. Perrelli. We are engaged in the 2011 budget process, 
where we are looking at what additional resources are needed in 
Indian country across the entire spectrum.
    Mr. Scott. And will that budget include costs of 
incarceration?
    Mr. Perrelli. Well, certainly we will factor that in. In 
this year, under the Recovery Act, there is $225 million 
dedicated to the construction of tribal prisons.
    One of the things that the Tribal Law and Order Act would 
do and that we think is important is allow those funds to be 
used in a broader way. Currently it really only allows the 
construction of traditional prisons. Tribal communities have 
come to us and said, ``We would like to use them for broader 
purposes, whether it is justice centers, rehabilitation, other 
purposes.'' So that, we think, is an important aspect of this 
act.
    Mr. Scott. And we can count on the budget on being a 
comprehensive response to this problem?
    Mr. Perrelli. I can't guarantee what OMB will do but I can 
guarantee that we are looking at this problem in a 
comprehensive----
    Mr. Scott. You are asking.
    Mr. Perrelli. We are asking.
    Mr. Scott. Thank you.
    Gentleman from California?
    Mr. Lungren. Obviously responses by representatives of 
Administrations do not change with their understanding of the 
power of OMB.
    Mr. Perrelli, I would like to ask you this, both what the 
position of the Administration is, and as you understand this 
bill how would it affect the PL 280 States and would it be a 
situation of concurrent jurisdiction or would this remove 
jurisdiction of general criminal enforcement by State law 
enforcement in PL 280 States?
    Mr. Perrelli. My understanding is that upon a request of a 
particular tribe and in the House version of the bill, 
consultation with the Attorney General, I know that on the 
Senate version of the bill it requires the consent of the 
Attorney General, which we support, and I can explain why--that 
it would move from mandatory PL 280 to a concurrent 
jurisdiction, and there are a number of concurrent PL280 
jurisdictions across the country.
    Mr. Lungren. So it would not remove, as you understand it, 
jurisdiction with State authorities?
    Mr. Perrelli. That is my understanding of the current 
version of the bill.
    Mr. Lungren. Because if it did I would have to oppose it 
because I would be afraid we would be losing the very thing the 
purpose of this bill is to achieve, which is to ensure those 
who are part of Indian country the same right to protection 
from crime, including violent crime, that every other American 
has the right to not only deserve but to expect.
    Let me ask you this: Under current law, with respect to 
criminal violations on tribal land, what is the appellate 
process?
    Mr. Perrelli. Under current law if the case is taken into 
the Federal system it follows the normal Federal appeal 
structure. Depending on the type of jurisdiction in place, 
whether it is PL 280 or something else may well go into the 
State system and go through the State process. If the tribal 
prosecutor takes the case and pursues it in tribal court there 
is the limit of the 1-year sentence and then there are whatever 
appellate options may be available through that tribal court 
system.
    There are a number of courts that have intertribal 
appellate courts so that there will be several tribes together 
that will have an appellate system. That is not at all 
uncommon--some in California, the Pacific Northwest, as well as 
the Southwest. But not every tribe has an appellate system 
currently.
    Mr. Lungren. And under this legislation, if granted, 
jurisdiction in a particular--well, in tribal areas, would the 
Federal law enforcement have the ability to make the decision 
as to whether they would take a case or would that have to be 
with the acquiescence of the tribe or tribal court? How would 
that work?
    Mr. Perrelli. I think it would work similar to how it does 
in the many concurrent jurisdiction States now, where the 
Federal law enforcement makes the decision. They have the 
ultimate authority whether they want to pursue Federal charges. 
There is no question that we work in close partnership with 
tribal authorities as well as State and local authorities in 
making decisions.
    And I would say that I think it is extraordinarily 
important for all of those entities to work together to address 
public safety, because it may well be that while pursuing one 
case on the State level is a better idea, pursuing another case 
at the Federal level may be a better idea. That is really the 
theme behind what are called our Safe Trail Task Forces. There 
are 18 of them that the FBI manages that are focused on Indian 
country, and they bring together tribal, State, local, and 
Federal law enforcement to work together on cases that may 
ultimately be pursued in different ways. But certainly this 
does not give up any of the discretion of Federal law 
enforcement to pursue cases federally.
    Mr. Lungren. Now, a number of cases were mentioned by the 
author of the bill, and I think you made reference to it too, 
with respect to the unbelievably high level of sexual assaults 
that apparently do not go prosecuted. Is this because of a 
failure of resources?
    Is this a failure of tribal law? Is this a failure of 
Federal prosecutors? Is it a uniquely serious problem in PL 280 
States?
    I am trying to get a sense of what the--if the facts are--
and I believe them to be true--but if the facts are as vivid 
and as offensive as they appear to be, how can this continue? 
Why has it continued?
    Mr. Perrelli. I would first of all say it is not a problem 
specific to PL 280 States, although I would certainly note that 
Alaska presents perhaps the biggest challenges. There certainly 
are challenges, I think, on several levels. First, there is 
obviously the need to dedicate sufficient resources. I think 
the challenges of distance in many areas make it difficult to 
gather evidence and to be able to pursue crime appropriately.
    I do think that we in the Federal Government, working with 
State, local, and tribal partners need to develop some new 
strategies. One of the things we have seen in child sexual 
assault cases is the use of child advocacy centers and 
multidisciplinary teams bringing everyone together has been 
extremely effective, in both protecting children as well as in 
bringing perpetrators to justice.
    I think we are looking right now at a similar model in the 
domestic violence and sexual assault area, where we would bring 
everyone together, because I think there is no question that 
anybody can look at the statistics and say we are not doing as 
good a job as we need to.
    Mr. Scott. Gentleman from Illinois, Mr. Quigley?
    Mr. Quigley. Thank you, Mr. Chairman. Sorry about that.
    I guess as a former criminal defense attorney I witnessed 
the problems that sometimes could take place just between the 
State and the Federal deciding who was going to go forward in a 
criminal investigation or charges. This is only compounded in 
this kind of situation.
    Could you address some of those issues of jurisdiction and 
how it could complicate life for a defendant, but also, as is 
addressed elsewhere, the issues that could come out in a 
disparity in sentencing as a result of this, given the limits 
the tribes face and so forth?
    Mr. Perrelli. Certainly. First, on the complexity: The 
situation that would arise if a tribe were to seek retrocession 
and if it actually occurred, is not dissimilar from what you 
see in, you know, maybe a dozen States today, which is 
concurrent jurisdiction, where there really are tribal, State, 
and Federal law enforcement who all could have potential 
involvement in the matter.
    And it is absolutely incumbent on them to work together and 
to ensure that a defendant's rights are not violated. But it is 
correct that as separate sovereigns they each have their own 
authority to potentially prosecute.
    I don't think we have seen a huge number of situations 
where there have been multiple prosecutions in an effort, but 
it certainly does occur, just as it occurs at the State and 
Federal level. So I think the cornerstone of this bill, and I 
think going forward, is the need to work together to prosecute 
crime in a smart way and not prosecute the same crime over and 
over again.
    Mr. Quigley. But is it detailed in the legislation or are 
you suggesting that a defendant needs to hope that these 
entities work together?
    Mr. Perrelli. I think there is a great deal in the 
legislation that tries to facilitate that kind of cooperation 
and coordination, but I think that the defendant is in no 
different position than defendants in Connecticut, Idaho, 
Florida, Massachusetts, and other States that have the exact 
same situation currently. But it would be putting the defendant 
in a situation no different than the situation currently in 
California and other states that are mandatory PL 280.
    Let me get to the disparate sentencing which you asked--
this is an area of real concern to us. The study was done in 
2003 identifying disparate sentencing, I think. You know, 
roughly 25 percent of the violent crime prosecuted in the 
Federal system is actually Indian country crime, and so that as 
violent crime sentences increase it has a disproportionate 
effect on Native American defendants.
    This has been an issue that we have been concerned about, 
and the Department is engaged in a broad review of sentencing 
policy now. I think it will require a longer and deeper 
examination of sentencing policy related to Native Americans, 
and this is something on which certainly tribal leaders who 
have been concerned about this issue have sought our 
engagement, both at the Department of Justice in terms of 
thinking about charging decisions, but also in trying to engage 
the Sentencing Commission.
    Mr. Quigley. Is there anything else we can do within this 
legislation to try to address that, or----
    Mr. Perrelli. Perhaps slightly off the topic, but I think 
getting in the same direction, certainly one of the things that 
we have supported as an amendment to the Senate in the bill and 
would support here is ensuring a right to counsel whenever a 
tribal court seeks to impose a sentence of more than 1 year. So 
that is something that we are very supportive of and think 
would be helpful.
    Mr. Quigley. Thank you.
    Mr. Scott. Gentleman from Florida, Mr. Rooney?
    Mr. Rooney. Thank you, Mr. Chairman.
    And I come from the 16th district of Florida. We have the 
Brighton Seminole Indian Reservation in my district, and so 
these issues are of utmost importance to me and I think a lot 
of the people in central Florida and south Florida.
    So with that, I want to thank you for your testimony. I 
just have a few brief questions and appreciate your response.
    Can you provide for me examples of statutes requiring the 
reporting of all declinations by either Federal law enforcement 
or Federal prosecutors to either an office within the 
Department or another jurisdiction for prosecution, and is the 
referral of cases to States for prosecution governed by the 
statute?
    Mr. Perrelli. I think in terms of reporting on 
declinations, the one bill that I can think of is the Emmett 
Till bill, the cold case bill. So that does have a reporting 
requirement.
    What we have supported is a requirement that we cooperate 
and coordinate with tribal partners, rather than a mandatory 
requirement of providing specific evidence or specific 
information, because I think our view is that you want to make 
sure that a prosecutor has the discretion in a particular case 
to say, ``No, I don't want to hand over this evidence because 
it might be relevant to another investigation,'' or, ``I don't 
want to provide this evidence because of privacy or other 
issues.''
    But the one bill that I can think of that has that kind of 
reporting requirement is the Emmett Till bill.
    Mr. Rooney. Okay. Is the referral of cases to States for 
prosecution governed by a statute?
    Mr. Perrelli. It is not governed by a statute that I can 
think of. We are authorized to cooperate with them, but I don't 
think there is a specific statute that lays out what 
prosecutors have to do.
    Mr. Rooney. Okay. Thank you.
    Does the Department support the provision in Section 101(c) 
of the bill, which appears to grant warrantless arrest 
authority to tribal authorities for all Federal crimes?
    Mr. Perrelli. Our view is that we think that section would 
best allow warrantless arrests only upon probable cause, which 
would be a change, as well as really for felonies or certain 
misdemeanors where there is a threat to public safety. But for 
misdemeanors where there is no threat to public safety, we have 
generally been of the view that there is not a need to 
authorize a warrantless arrest.
    Mr. Rooney. Section 201 addresses the issue of retrocession 
of criminal jurisdiction to the United States. Does the 
Department have any objections or concerns to how Section 201 
is currently drafted?
    Mr. Perrelli. We have taken the view--and this has been 
adopted in the Senate--that retrocession shouldn't occur unless 
the Attorney General is not just consulted but actually 
concurs. I think we want to ensure that jurisdiction isn't 
retroceded in Federal law enforcement authority absent a 
determination by the Attorney General that the resources are 
available and the Federal Government is prepared to take on 
those additional efforts.
    Mr. Rooney. Okay. Does the Department support Section 304 
of the bill, which would allow a tribal court to direct the 
incarceration of those convicted by tribal court in a Bureau of 
Prisons facility?
    Mr. Perrelli. We have had concerns about doing that 
wholesale across the board. I think our view is that the best 
medium-and long-term approach here is construction of 
appropriate facilities, including alternatives to 
incarceration, in tribal communities or on a regional basis for 
a number of tribes.
    But we have been willing to take on a pilot project that 
involves placing up to 100 prisoners into the Bureau of Prisons 
system, recognizing that there are capacity constraints in 
tribal facilities and believing that, at least in the short 
term, this may relieve some of those problems in the hope that 
we will be able to build capacity in tribal facilities over 
time.
    Mr. Rooney. Okay.
    If I might take the liberty--and this might not be an 
appropriate question for you--but as somebody who has sort of 
watched the reservation in our district change over the years, 
specifically with the introduction of a very large hotel-
casino, and reading the background of the--your testimony here 
today and the issue--and it deals with a lot of things that 
deal with funding, obviously, manpower and unemployment and 
things like that--has that phenomenon had any effect in the 
bigger picture? And again, if you don't know the answer to this 
that is--I completely understand. I am just curious as--what 
has that--what impact, if any, has that had on what we are 
talking about here today?
    Mr. Perrelli. Sure. I think you do see larger differences 
among tribal communities, whether it is economic development, 
housing, health care, and criminal justice systems. Certainly 
there are certain advantages that gaming tribes have that live 
near larger communities and are able to earn significant 
revenue.
    They certainly have advantages that others do not, and so 
you see that. I particularly focus on some of the tribes in the 
reservations in the Great Plains particularly, where 
Congresswoman Herseth Sandlin's jurisdiction is, where they may 
have casinos but they don't have the same kind of revenue, and 
there are obviously less funds available to spend on justice 
systems and other things. So I think you do see some tremendous 
development of justice systems, health care, and other things 
in some communities, and other communities that are still 
struggling.
    Mr. Rooney. Thank you, sir.
    And, Mr. Chairman, just--I would like to submit a letter 
from our Ranking Member into the record, if I could.
    Mr. Scott. Without objection, so ordered.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Rooney. Thank you, sir.
    Mr. Perrelli. Thank you.
    Mr. Scott. Mr. Perrelli, you--in response to the gentleman 
from Illinois you indicated you support a right to counsel if 
they are getting more than 1 year. You do not support a right 
to counsel under a year?
    Mr. Perrelli. We support for more than 1 year; we have not 
taken a position on less than a year. But I think we have been 
focused on the situation, similar to the situation in the 
Federal system, where you have got potential felony time of 
more than a year.
    Mr. Scott. It was my understanding if you are looking at 
any time you have a right to counsel.
    Mr. Perrelli. With respect to----
    Mr. Scott. Is that not right?
    Mr. Perrelli. Well, in Indian country it is not--it has not 
been correct----
    Mr. Scott. But in Federal court if you are looking at any 
time you have a right to counsel.
    Mr. Perrelli. I guess my recollection was if it was less 
than 6 months that----
    Mr. Scott. Well, if you could get back to us on that, and 
also what does counsel mean?
    Mr. Perrelli. We think a counsel have to mean effective 
representation. And so we have been supportive of amendments 
that make clear that there is a requirement of effective 
representation and that--effective representation by someone 
who is a member of a bar of a jurisdiction in the United 
States.
    Mr. Scott. A lawyer?
    Mr. Perrelli. Well, someone who is barred. I know that 
there are some tribal communities where they do authorize to 
practice non-lawyers in certain circumstances.
    Mr. Scott. Okay, so when you say right to counsel you were 
talking about a lawyer and not an advocate?
    Mr. Perrelli. We are talking about--what we have said is 
effective representation, and that is some----
    Mr. Scott. Is that an issue we need to look at as the bill 
goes forward?
    Mr. Perrelli. We certainly think that the current version 
of the House bill needs to be amended to ensure counsel to--
counsel who is authorized to practice law in a jurisdiction in 
the United States and that that representation should be 
effective.
    Mr. Scott. Okay.
    Other questions, Mr. Rooney, Mr. Quigley?
    Thank you very much, Mr. Perrelli.
    If our next witnesses will come forward--next panel of 
witnesses?
    As they come forward I will begin my introductions. We have 
four witnesses coming forward.
    The first panelist is Marcus Levings, who serves as the 
Great Plains area vice president of the National Congress of 
American Indians. He also serves as a Tribal Business Council 
chairman of the Three Affiliated Tribes in western North 
Dakota. Graduated from Dickinson State University with a 
Bachelor's degree in business administration and finance and 
holds a Master's degree from the University of Maryland.
    Our next witness is Tova Indritz. She is the chair of the 
Native American Justice Committee of the National Association 
of Criminal Defense Lawyers.
    For 13 years she headed the Federal Public Defender Office 
in New Mexico. She has been in private practice since 1995, 
where she represents defendants in Federal, State, and Indian 
tribal courts. She graduated from Yale Law School.
    Next panelist will be Scott Burns, who is the executive 
director for the National District Attorneys Association. 
Between 2000 and February 2009 he was deputy drug czar with the 
executive office of the president, Office of National Drug 
Control Policy. In that position he was chair of several White 
House intergovernmental committees, including the Native 
American Initiative. He graduated from California Western 
School of Law.
    And our final panelist is Barbara Creel. She is a member of 
the Pueblo Jemez and a law professor at the University of New 
Mexico School of Law, where she teaches in the Southwest Indian 
Law Clinic. She also teaches a course designed--she designed 
called Criminal Law in Indian country.
    Prior to teaching she served as the tribal liaison to the 
United States Army Corps of Engineers and as assistant Federal 
public defender in Portland, Oregon. She is a graduate of 
University of New Mexico School of Law.
    We begin with Chairman Levings.
    Mr. Levings. Morning.
    Mr. Scott. Just before you start, there is a timing device 
that will help you keep within the 5 minutes that you have been 
allotted. It will start green and when there is 1 minute left 
the device will turn to yellow, and red when your 5 minutes 
have expired.
    Chairman Levings?

TESTIMONY OF MARCUS LEVINGS, GREAT PLAINS AREA VICE-PRESIDENT, 
      NATIONAL CONGRESS OF AMERICAN INDIANS, NEW TOWN, ND

    Mr. Levings. Morning. My name is Marcus Dominick Levings. 
My Hidatsa name is Upapagish, White-Headed Eagle. I am the 
chairman of the Three Affiliated Tribes of Mandan, Hidatsa, and 
Arikara of the Fort Berthold Reservation. It is an honor to be 
here in front of you and--very important issue.
    Honorable Chairman and distinguished Members of the 
Committee, thank you for the opportunity to testify today. We 
would also like to thank Congressman Herseth Sandlin for her 
efforts to move the Tribal Law and Order Act forward.
    We have a public safety crisis on Indian reservations 
across the country and we urge Congress to move swiftly to pass 
the legislation in 2009. On some reservations violent crime is 
more than 20 times the national average. One in three Native 
American women will be raped in their lifetimes.
    Many reservations are viewed as places with weak law 
enforcement and that perception breeds crime and violence. As 
President Obama said in his speech to tribal leaders last 
month, these facts are an assault on our national conscience 
that we can no longer ignore.
    For 2\1/2\ years NCAI has worked with the Senate Committee 
on Indian Affairs and the Senate Judiciary Committee. The 
legislation has been well-vetted and we have achieved a strong 
bipartisan consensus.
    We ask that the Judiciary Committee allow the Senate bill 
to move to the House floor to be considered under suspension. 
Our goal is to make 2010 a safer year for American Indian 
communities.
    I would like to mention only two areas that are addressed 
by the bill: Federal accountability and empowerment of tribal 
law enforcement. Under the Major Crimes Act the Federal 
Government has the role--sole authority for felonies committed 
on Indian reservations. Despite the Federal responsibility, 
crime rates have been doubling and tripling in Indian country 
while crime rates have been falling throughout the rest of the 
United States.
    Something is seriously wrong with the Federal law 
enforcement response. Funding for U.S. attorneys' offices has 
nearly doubled since 1998, yet the number of Federal 
prosecutions of Indian country crimes has fallen 26 percent 
since 2003.
    These concerns are not confined to any one Administration. 
In November 2007 the Denver Post reported that over the past 10 
years U.S. attorneys have declined to prosecute nearly two-
thirds of felony Indian country cases nationally.
    The reforms in the Tribal Law and Order Court would ensure 
that Indian country crime is subject to consistent and focused 
attention. In particular, Section 102 would require the 
Department to compile data on declinations of Indian country 
cases and submit annual reports to Congress.
    Tribal leaders and Members of Congress have sought this 
data for decades. This will provide an important tool for 
measuring responsiveness and guiding law enforcement policy in 
the future.
    Empowering tribal law enforcement is also critical. 
Criminal jurisdiction in Indian country is divided among 
Federal, tribal, and State governments. Tribal law enforcement 
officers are usually the first responders to crime scenes on 
Indian land but their limited authority often prevents them 
from arresting the perpetrators.
    Section 301 would go a long way toward eliminating barriers 
to law enforcement in Indian country. Special law enforcement 
commissions have long been available to tribal police, but the 
BIA has withheld the training and granting of commissions for 
bureaucratic reasons.
    This section expands the special law enforcement 
commissions program and clarifies the standards required of 
tribal officers. Section 301 also addresses a severe problem 
that tribes face in recruiting and training police officers.
    Another significant concern for tribal governments is their 
inability to impose appropriate sentences. When U.S. attorneys 
and States attorneys in PL 280 jurisdictions decline to 
prosecute felonies in Indian country that responsibility falls 
to the tribes despite their limited sentencing power.
    The reality on the ground is that tribal courts are often 
responsible for prosecuting felony crimes. There is a large gap 
between the maximum sentencing authority of tribes and the 
average sentence for the least serious felonies that are 
prosecuted by the Federal Government. Section 304 would help 
remedy this problem by increasing tribal sentencing authority 
to a term of 3 years in prison and ensures protection of civil 
rights by requiring the tribe to provide indigent defense 
counsel.
    NCAI supports a swift passage of the Tribal Law and Order 
Act to address the critical shortcomings in Federal support for 
tribal criminal justice. NCAI urges the Committee to 
acknowledge the urgency of the public safety situation on 
Indian lands and advance the bill as quickly as possible. 
Native communities cannot afford another year of the status 
quo.
    I would like to thank the Committee for inviting us to 
testify today. Ajugidaj. Thank you.
    [The prepared statement of Mr. Levings follows:]
                  Prepared Statement of Marcus Levings

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Ms. Indritz?

   TESTIMONY OF TOVA INDRITZ, CHAIR, NATIONAL ASSOCIATION OF 
 CRIMINAL DEFENSE LAWYERS, NATIVE AMERICAN JUSTICE COMMITTEE, 
                        ALBUQUERQUE, NM

    Ms. Indritz. Mr. Chairman, Mr. Gohmert, Members of the 
Committee, Tova Indritz on behalf of the National Association 
of Criminal Defense Lawyers, and my testimony here today is 
also endorsed by the New Mexico Criminal Defense Lawyers 
Association and the National Association of Federal Defenders.
    Most Americans would be completely shocked to know that 
their fellow American citizens are not entitled to the 
appointment of counsel when they are looking at going to prison 
for any length of time. And it is our position that Native 
Americans charged in tribal court who can be sentenced to any 
time in prison should have the right to counsel, and if they 
can't afford it, the right to appointed counsel. And we would 
also ask that this Committee include in the bill some funding 
for that, because in this bill there is $35 million per year of 
funding for tribal jails and not one penny for the provision of 
defense counsel.
    Now, I believe that most Americans do understand that all 
societies, including tribes, have a right to law, and the rule 
of law, and social order, but that still has to be balanced, as 
it is in the Federal and State systems, with respect for the 
rights of individuals. And here we are 46 years after Gideon v. 
Wainwright and 37 years after Argersinger v. Hamlin, which, Mr. 
Scott, you had asked the gentleman from Department of Justice 
if people are not entitled to counsel in misdemeanor cases, and 
the answer is under Argersinger the Supreme Court says when 
someone is facing any period of incarceration they have a right 
to counsel.
    But as we know, that doesn't apply in tribal court, which 
now is restricted to a year. And so we would ask Congress to 
authorize funds for some kinds of public defender systems.
    I can tell you, I live in New Mexico and all 19 pueblos in 
New Mexico do not have any kind of public defender system. One 
of the two Apache tribes does and the Navajo tribe has a public 
defender that represents well less than 10 percent of the 
people who go to court with a staff of only two professional 
lawyers and four paralegals.
    So while we respect and recognize the importance of tribal 
sovereignty and the rights of tribes to follow traditional 
methods of dispute resolution, our position is this: If a tribe 
utilizes its court system for restorative justice and 
restitution and making parties whole then maybe lawyers aren't 
required, but once a person faces any time in prison or jail--
any loss of liberty--then they, as U.S. citizens, should have 
the same rights as other U.S. citizens to counsel, to appointed 
counsel if they are too poor to afford counsel.
    And we believe that tribes can provide that and provide due 
process and there should be funding to do that. So we would ask 
the court to--this Committee to amend the law to guarantee 
right to counsel for any time in jail and that to be provided 
at the expense of the tribe, as is in the Senate version, and 
then to provide funding.
    It should be effective assistance of counsel, but it should 
also be real lawyers, and that is people who have graduated 
from law school and are a member of the bar of any State or the 
District of Columbia. I know that some tribal bars allow people 
to be a member of the bar who have not graduated from law 
school and maybe not even graduated from high school.
    And so we oppose increasing tribal sentences to 3 years 
absent full right to counsel, right to appointed counsel and 
funding, and full due process. And I would point out that some 
tribes currently stack sentences, so someone gets 1 year plus 1 
year plus 1 year for a series of misdemeanors. You would have 
to be a kind of unimaginative prosecutor not to see how one 
event could be more than one count, and that is done without 
counsel. I attached one court opinion that says that to my 
testimony and cited some others.
    So we also think that the limitation of 1 year should be--
or 3 years--should be per course of conduct rather than per 
count, as some tribes currently interpret. And we also think 
that there should be real due process.
    And I want to just give some examples of my own experience 
with problems in some tribal courts. I have seen charges that 
are not supported by any tribal ordinance or statute. I have 
seen a proposed jury where all the juror--people who are 
eligible to be on the jury--are all men--in that case my client 
was a woman--because in that tribe that was their system. I 
have seen a lack of access to actually a statute that the 
client was charged with--moreover a lack of procedure. I would 
call the counsel on the other side and say, ``So if we have a 
jury trial does the jury have to be unanimous?'' And the other 
lawyer would say, ``Well, good question. Let me figure it out 
and call you back.''
    So things happen--go along. No rules of evidence, no appeal 
because the tribe chose not to participate in any kind of 
appellate process, situations where the judge was not a lawyer, 
situations where the judge had a real conflict of interest. In 
one case I did in a tribal court the judge who was first 
appointed was the person who had fired my client for the same 
conduct that the client was then charged with. Or in another 
case there was a family relationship between the victim and the 
judge.
    But the worst--there was a case I did in a tribal court 
where after I won, the tribe retaliated against a witness--not 
my client, but a witness who was a relative of my client. That 
witness had been the former head of the tribe and the tribe was 
mad that he had come and testified for the defendant, and so 
they banished him, which meant he lost his job, he lost his 
place to live and his community connections. He was a full-
blood member of the community.
    And I don't know what that did to that witness, but in the 
future anybody else who is called to be a defense witness at 
trial has to think three times and say, ``Do I want to risk my 
home, my livelihood, my job, my family and community 
connections and all I hold dear just because someone is asking 
me to be a witness?'' because of this retaliation that happened 
in this particular case that I was a defense lawyer in.
    So I would just say, we also oppose having tribes send 
prisoners at no cost to the Federal Bureau of Prisons. Tribes 
would have to pay for treatment and counseling options but they 
could send people away for free to the Bureau of Prisons, which 
is ill-equipped. And in my written testimony, which is much 
more extensive, I list some of the problems with this Bureau of 
Prisons approach having to do with good time, and habeas, and 
all kinds of other things, not to mention that the BOP is very 
overcrowded.
    So we would also ask for some guidance so that people are 
not prosecuted three times by the Federal, State, and tribal 
governments.
    And I just want to make one last comment in closing, and 
that is about jury pools in the Federal court system. The 
Federal courts, by their own statistics, admit that Native 
Americans are underrepresented in Federal jury pools.
    And if we are thinking of having more jurisdiction or 
trials on Indian land there has to be a way to require Federal 
courts to use supplemental source lists, such as driver's 
license lists, so that the number of Native Americans in the 
jury pools are proportionate in percentage to the Native 
Americans in the over-18 population--over age 18 population--so 
that Native Americans are not so underrepresented in Federal 
jury pools as is the case now.
    I have other concerns and I have addressed them in my 
fairly extensive written testimony. And I really appreciate the 
opportunity for the defense bar to come forward and talk about 
individual rights with respect to this bill affecting Native 
Americans. Thank you very much.
    [The prepared statement of Ms. Indritz follows:]
                   Prepared Statement of Tova Indritz

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you.
    Mr. Burns?

TESTIMONY OF SCOTT BURNS, EXECUTIVE DIRECTOR, NATIONAL DISTRICT 
             ATTORNEYS ASSOCIATION, ALEXANDRIA, VA

    Mr. Burns. Chairman Scott, Ranking Member Gohmert, and 
Members of the Subcommittee, thank you for inviting me to 
testify today on behalf of America's National District 
Attorneys Association. We represent and are the voice of some 
39,000 prosecutors across the country and responsible for 
prosecuting 95 percent--95 percent--of all criminal cases in 
this country.
    As a State and local attorney in a small town in the 
Southwest for 16 years I became familiar with the unique 
challenges that face Indian country that you, Chairman Scott, 
and Congressman Lungren articulately set forth in your--forward 
in your opening remark. I also had the honor and privilege to 
serve initially as the deputy director for State and local 
affairs in the White House Office of National Drug Control 
Policy--the drug czar's office--and because acutely aware early 
that there was something missing from the title. And I would 
like to say that it was me, but it was a lot of pressure from 
the National Congress of American Indians and others--and it 
sounds small but it wasn't--that we changed the office to 
Office of State, Local, and Tribal Affairs and began to try and 
look at, in a comprehensive way, some of the issues that we 
were facing in Indian country, and it was staggering.
    Traveling to the Akwesasne Mohawk Reservation in upstate 
New York, to Crow, to Wind River, to Net Lake, to--and Salt 
River, to Navajo, and Hopi, and Yakima, and across the country, 
the jurisdictional problems that, again, were addressed in the 
opening remarks became clear. It also became clear that the 
lack of training and the lack of penal resources and facilities 
was staggering. It also became clear that the lack of 
coordination between Federal, State, and local, and tribal, on 
the issue that I was then addressing, the drug issue, was 
almost depressing.
    We got some initial money to try and bring to Indian 
country something that had worked in non-Indian country--the 
HIDTA program, High Intensity Drug Trafficking Area. First went 
to five test areas and asked them--went to Indian country and 
said, ``Would you be willing to look at this? Would you be 
willing to waive sovereignty if we could leverage all of the 
assets that each bring from their individual agencies and 
entities and governments?'' and all five of them did. And the 
money was so small--$500,000 for five different tribes--it is 
hard to say whether that worked or not. But what did work was, 
in my mind, a sense of commitment and the willingness to try 
and work together.
    I was going to talk about the staggering numbers, Chairman 
Scott, that you talked about. I won't repeat it, but the 
domestic violence, the sexual assaults, the crime, 
methamphetamine, gangs now in Indian country is obvious and is 
evident.
    NDAA applauds Congresswoman Herseth Sandlin for introducing 
H.R. 1924, the 11Tribal Law and Order Act of 2009'' and for 
each of you for appreciating the importance of this bill. As 
you know, during recent years all of the criminal justice 
system, especially on a State and local, have been pinched by 
States' budgets that are diminishing.
    One of the things that we at the National District 
Attorneys Association have prided ourselves in over the years 
is providing the best training in the country for prosecutors--
for State and local prosecutors that do 95 percent of the 
criminal cases at the National Advocacy Center in South 
Carolina. And while the United States attorneys need it and 
their cases are so important, their funding at the NAC has gone 
to about $15 million. The funding for State and local 
prosecutors from the authorized amount of $4.5 million, to less 
than $2 million, to--in fiscal year 2010 I think it is $1.175 
million, which extremely hampers our ability to give State and 
local prosecutors appropriate training.
    I guess to wrap up, and prior to, again, thanking you for 
your insight into these complicated issues, I tell you that I 
can speak for 39,000 prosecutors in saying that we stand ready 
to assist, to help, that we get it, that we appreciate the 
issues are complicated. But good women and men who call 
themselves prosecutors look forward to your leadership and we 
stand ready to assist.
    Thank you.
    [The prepared statement of Mr. Burns follows:]
                   Prepared Statement of Scott Burns

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
    Mr. Scott. Thank you.
    Ms. Creel?

  TESTIMONY OF BARBARA L. CREEL, ASSISTANT PROFESSOR OF LAW, 
SOUTHWEST INDIAN LAW CLINIC, UNIVERSITY OF NEW MEXICO SCHOOL OF 
                      LAW, ALBUQUERQUE, NM

    Ms. Creel. Good morning. Mr. Chairman, Ranking Member 
Gohmert, distinguished Members of the Committee, my name is 
Barbara Creel. I am a member of the federally-recognized tribe 
Pueblo of Jemez, Walatowa, in New Mexico, one of 22 federally-
recognized tribes in New Mexico and one of the 19 pueblos.
    I am a former Federal public defender, but I come to you 
today not as a person speaking on behalf of my employer or my 
tribe, but as someone who has seen crime and punishment on the 
ground in Indian country and doesn't look at this from an 
academic point of view but as someone who is a part of a 
community and families who have been devastated by both crime 
and punishment.
    I commend the Committee for addressing the issue and 
Congress for all of the efforts in trying to make Indian 
country safer for Native Americans. It is part of the Federal 
trust responsibility, as we know.
    I cannot agree with the framing of the issue, though, as 
one of simply addressing the Indian problem by locking up more 
Indians, especially without the right to counsel. I am happy to 
hear Mr. Perrelli say that this must be addressed 
comprehensively and must include drug court, treatment program 
for substance abuse, and reentry programs.
    And there are effective drug treatment and reentry programs 
today on the ground run by the tribes under their tribal 
sovereign rights that are culturally sensitive and, again, 
effective. The Muscogee Creek Nation has a drug treatment now 
currently and a reentry program that reduces the ordinary rate 
for recidivism from 68 percent to about 29 percent and it is 
culturally sensitive.
    The bill should be--the act should be amended to address an 
Indian defendant's right to counsel in tribal court. They 
should be afforded the right to counsel even if they are going 
to be imprisoned for just 1 day.
    I understand that the Committee and Congress is sensitive 
to tribal sovereignty and the sovereign right to determine the 
kind of justice system that is present for policing and 
enforcing laws on the--in tribes and pueblos. However, I don't 
know of any tribe that made a sovereign decision to no right to 
counsel.
    I know that tribes have a particular idea about what--maybe 
that they want to counsel, as in no attorneys, but once they 
have decided that--to set up a Western-style court system 
usually the decision not to have a public defender office is 
based solely on funds. The severe lack of resources and the 
fact that tribes are dealing with many issues all at the same 
time--poverty, unemployment, education, health issues--the 
funds that they have to address these issues, which all funnel 
into crime, are severely limited and they are severely 
fractionated.
    There is piecemeal--was mentioned the Indian Health 
Service, Department of Education, as well as the Department of 
Justice all have separate tribal offices which aren't always 
coordinated with each other. I think the act itself, in 
coordinating those different programs that are piecemeal 
together is really important for investigation purposes, but 
also for treatment purposes.
    Fundamental fairness and due process requires parity in 
tribal court justice systems, so once the tribe has decided to 
enact their sovereign right to create a tribal court that has a 
law-trained prosecutor I believe that the right to counsel for 
those Indian defendants who are facing any imprisonment is 
imperative. And I believe that the United States government, 
who has held that the right to counsel is a human right and is 
a bedrock principle for fundamental fairness in courts, should 
apply to native people as U.S. citizens.
    I say this because many times Indian defendants are facing 
prosecution both in their tribal court and in Federal court. 
Because of the Major Crimes Act they--tribal jurisdiction has 
been preempted and displaced.
    Tribes don't know whether a case is going to go Federal or 
not, so the fact that they may not have a public defender 
system in place severely impacts the individual's civil rights 
if that case then does become a successive prosecution. Also, 
there are instances where there is an overlapping investigation 
between the Federal and the tribal case and prosecution, and 
there are some egregious lapses in protecting the individual 
Indian's rights when he does not have defense counsel from the 
moment he is being investigated. And those, then, can impact 
his ability to create a fair defense in Federal court where he 
is entitled to the right to counsel.
    Thank you very much for the opportunity to comment on the 
act and provide testimony, and I look forward to any questions 
that you may have.
    [The prepared statement of Ms. Creel follows:]
                 Prepared Statement of Barbara L. Creel


                            Barbara L. Creel

                       Assistant Professor of Law

                 University of New Mexico School of Law



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Scott. Thank you very much.
    Ms. Creel, you indicated a number of things that needed to 
be done. Who should pay for the court-appointed attorneys and 
the training for judges, prosecutors, and other things 
associated with the tribal courts?
    Ms. Creel. I think tribes have chosen to have tribal courts 
and prosecutors through funds allocated by Congress, so the 
bill should include funding for the indigent defense counsel as 
well. If there is any funds that are going to the tribe it 
should be part of the trust responsibility to ensure that 
tribes are fully funded to make the sovereign decisions that 
they would like to with regard to what kind of justice system 
they want, and that should include the right to counsel.
    Mr. Scott. Mr. Burns, what should the qualifications be for 
judges, prosecutors, and defense attorneys in tribal courts?
    Mr. Burns. Well, on behalf of State and local prosecutors I 
have to preface any response that we always have great respect 
and deference for sovereign nations and the decisions that they 
make within that nation. But I think prosecutors want law-
trained judges; prosecutors want law-trained and competent 
defense counsel; and prosecutors want a system where you don't 
call on the phone the night before and say, ``Hey, do we need a 
unanimous jury or not?'' And we support a good system.
    Mr. Scott. What about rules of evidence?
    Mr. Burns. Same thing. I mean, if somebody's liberty is at 
stake, if we are going to lock people up in the United States, 
it should not be, ``Hey, what do you think?'' It should be 
based upon----
    Mr. Scott. Should the Federal rules be totally effective in 
tribal courts?
    Mr. Burns. Again, I think it depends on the system that is 
in place and the individual portion of Indian country, as we 
have talked about. It is so complicated, from PL 280 to non-, 
to those that have concurrent and exclusive--it would depend 
upon that particular are, in my opinion.
    Mr. Scott. Ms. Indritz, you mentioned jury pools. What is 
used for the jury pools today in tribal courts and in Federal 
courts in tribal areas?
    Ms. Indritz. Let me start by answering your question with 
respect to Federal courts----
    Mr. Scott. Is your mic on? I am sorry.
    Ms. Indritz. I don't know.
    Mr. Scott. Okay.
    Ms. Indritz. Hello?
    Mr. Scott. Okay.
    Ms. Indritz. So in Federal court, under Federal law the 
Federal court is required to make a jury plan that would be 
approved by the circuit and they are required to use the voter 
list. Then they may choose to use supplemental source lists, 
and the supplemental source lists usually are a driver's 
license list, but they can be other things, like tax rolls or 
whatever.
    In the State of--in the Federal courts in New Mexico I can 
tell you that the courts have confronted this issue and chosen, 
because they want what they see as a more sophisticated jury 
pool, to only use the voter list, whereas in State court in New 
Mexico we use the driver's license--the voter list supplemented 
by the driver's list supplemented by the tax rolls. The State 
does the computer work of combining those, eliminating the 
people under 18, and eliminating the duplicates.
    So the Federal court could get that list for free--I mean, 
they have to get the voter list from the State anyway--but they 
choose not to. And as a result, the underrepresented groups are 
Hispanics, Native Americans, young people in the 18 to 30 age 
range, men, and rural people, but particularly Native Americans 
and Hispanics are underrepresented compared to their percentage 
of the population.
    So about a third of the Federal court districts have chosen 
to use supplemental source lists and other have not. And I know 
that this is also true for Arizona as well--Native Americans 
are just underrepresented in the jury pool.
    With respect to tribal courts, right now there are no 
Federal regulations about that and tribes can make their own 
choices about how they constitute jury pools, or if they have 
juries or not. So there is no requirements with respect to 
tribal courts that I am aware of.
    Mr. Scott. You mentioned people were ostracized for 
testimony.
    Ms. Indritz. I mentioned an instance I am personally aware 
of, your----
    Mr. Scott. What is the difference between that and what 
goes on in Federal court?
    Ms. Indritz. If that had happened in Federal court I would 
have immediately gone back to court and----
    Mr. Scott. You are aware of the campaigns against 
``snitching''?
    Ms. Indritz. I am aware that I would have gone back to a 
Federal judge immediately and gotten this resolved, but there 
was no way for me to do anything about it in tribal court. And 
my concern is not only for that individual who got banished, 
which was a very sad situation--there was sort of a small tribe 
that had kind of two factions, and one faction was mad at the 
other faction, but it was clearly retaliation for coming in and 
testifying and there was no question about--this witness had 
clearly told the truth. That wasn't the issue. It was that he 
had testified, as they saw it, against the tribe. But my 
concern is also for future people who are----
    Mr. Scott. Does that problem--has that problem been unique 
to tribal courts? Because you have people who are ostracized 
for ``snitching'' and are discouraged in any number of ways 
from testifying----
    Ms. Indritz. There is a remedy in Federal court, and there 
is a remedy in State court, and there is no remedy in tribal 
court.
    Mr. Scott. Okay.
    Chairman Levings, can you say what about what you would--
what is available in tribal areas in terms of crime prevention 
activities and whether or not more is needed in that area?
    Mr. Levings. Well, the Three Affiliated Tribes, the Mandan, 
Hidatsa, and Arikara, we work with all of the counties--the 
sheriffs and the State highway patrol and our policing.
    We have a unique circumstance up in North Dakota: The 
western North Dakota, as you know, is very much thriving on oil 
and gas development. We are going gangbusters 24/7 oil and gas 
development and the Williston Bakken Formation. Our problem, 
Mr. Chairman, is that we have a shortage of FBI agents. We have 
one agent for half of the State of North Dakota, and right now 
we are working with the associate----
    Mr. Scott. Does the tribe have law enforcement officials?
    Mr. Levings. We entered a 638 contract with the Bureau of 
Indian Affairs for law enforcement on December 7, 2007. It has 
made a tremendous se improvement. So we are unique, as I say, 
as we are going through this issue today.
    We have technical assistance that is working out the best 
it has ever been. Maybe it was the key 10 years ago; we wish we 
would have did it then because now we have got the attention of 
the Washington, D.C. office. Pat Ragsdale just moved on, I 
know, to Fort Snelling, Minnesota, but before that 638 contract 
our law enforcement was poor, next to none.
    There was one evening our COPS FAST grant officer--she had 
the whole reservation--1 million acres on her own behalf, and 
she was trying to police six segment sets separated by Lake 
Sakakawea that inundated Elbowoods, North Dakota, which was our 
homeland--90 percent of our people live there. Now we are 2, 3 
hours apart segment to segment.
    Our hub is New Town. They flooded Elbowoods so they come up 
with this new town sign and it said this is where the new town 
is going to be located, and that is where we are at today. And 
then Four Bears is where our tribal complex is at, and that is 
where our tribal chambers is and our council quarters.
    So we are distance--just to get around the reservation, I 
think, would probably take you 4\1/2\ hours to make a round 
trip. That is how far it is apart.
    So when we contracted in December 7, 2007 we made a unique 
circumstance work, and District 1 Commander Alma Fordance, I 
have got to commend him. The technical assistance he has given 
us since that contract--I guess going on maybe nine, 10 months 
now--has been second to none. And his coordination and 
collaboration with the tribe on a criminal investigation made 
it a better working relationship.
    So our tribe is experiencing different attention. I feel 
for the rest of Indian country, but it just takes time and you 
need to work through those things.
    We still have crime though, Mr. Chairman. It is ironic I 
sit here in front of you; less than 3 weeks ago my daughter was 
sexually assaulted on November 19 and she was in the hospital 
for 15 days. And she is home now and she has got a colostomy 
bag, and she is going to be home for 3 months recovering.
    And it is heart-to-heart for me because the perpetrator got 
away the first time. But this time the FBI agents and the DOJ 
attorneys are doing it by the book and our thoughts and our 
mindsets is that if the chairman's daughter isn't safe on Fort 
Berthold who is?
    So this is the time for me to be here to tell you how 
important it is. These perpetrators and these breaking of 
Federal crimes on Indian reservations is not discriminatory 
because this is the second time for me. My daughter was put in 
this circumstance in May of 2008 and it never got to any type 
of prosecution.
    In October 2001 my wife was in a drive-by shooting at the 
high school. That never did go to any type of prosecution. And 
we know who the individual is; the camera caught the incident 
on live feed because as a school board former president of New 
Town School Public District One--I was the president, and we 
put in cameras outdoors and indoors. And they had the car, they 
had it speeding away, they retrieved a bullet out of the door--
it was a nine millimeter bullet.
    So these things happen. And that time I was the Four Bears 
Segment Council representative. Now I am the chairman of the 
tribes.
    So this is paramount to me. Perpetrators need to be tried, 
and we need to have a coordinated effort and it needs to be 
funded to the point where we have enough agents to cover the 
western North Dakota to maybe three instead of one.
    So this is really important to me. I know there is a lot of 
pros and cons to a lot of the issues, and we are the tribe that 
is the most friendly as far as we know.
    Mandan, Hidatsa, and Arikara, we are the tribe that saved 
Lewis and Clark when they were coming through in 77 below 
windchill factors back in the day they were coming out toward 
exploration. And we saved them, got them fattened, got them 
ready for the trek back out to Portland, and they moved right 
along.
    But we have not changed. So our tribe is made up of a lot 
of members, not just from the Three Affiliated Tribes--the 
Mandan, Hidatsa, and Arikara, but from other tribes.
    I just told you about the Williston Bakken Formation. There 
is more license plates of employees from other States than 
there is from our own. So we have 4 percent unemployment, so we 
have different circumstances, yes. But we still have Federal 
crimes that need to be prosecuted, Mr. Chairman.
    Mr. Scott. Thank you very much.
    Mr. Rooney?
    Mr. Rooney. Thank you, Mr. Chairman.
    Mr. Levings, that was a very heartfelt testimony, and my 
sympathies go out to you and your family. One of the things 
that is sort of striking me with the testimony Ms. Creel 
mentioned before about how we would fund criminal defense 
attorneys--do you believe that the tribes are in a position to 
pay for counsel for indigent defendants? And I guess where I am 
going with this, if Ms. Creel's wish was granted is it a matter 
of custom that we are faced up against here or is it a matter 
of funding?
    In other words, the way the court system works is it--are 
the obstacles merely a matter of funding or are they a matter 
of that is just the way that it is done and those things have 
to be overcome too when you talk about the drive-by shooting 
and nothing ever happened? Was that a matter of just people 
purposely, you know, turning a blind eye, or because the 
resources weren't there? Are there more obstacles than just 
money here, I guess is the question.
    Mr. Levings. I believe when we had first initial meeting as 
the board president at that time, and as being a council member 
I had dual roles, I met with the chief of police for the city, 
I met with the chief of police for the Bureau of Indian 
Affairs, and I thought I was in the best circumstance but it 
just didn't happen. Maybe it was a shortage of agents. I am not 
sure.
    There were actually confessions, you know, there was 
different things going on. But the tribe--we have a committee 
as well. The Mandan, Hidatsa, and Arikara, we have a judicial 
committee.
    The judicial committee hears everything. They hear the 
plaintiff's, the defendant's sides, and we actually kind of 
give an opportunity for our members to vent. They come in and, 
of course, the defendants are all, you know, in their own 
mindset not guilty, and then the court is doing things that 
they have to and the police department is doing things they 
have to to incarcerate. But we hear everyone.
    So we hear a lot of the issues. One of the main ones was 
they wanted a public defender, so our tribe has been funding 
one for several fiscal years now. There was a grant or two they 
applied for; sometimes they are fortunate to get a few 
thousands of dollars, maybe a grant $25,000.
    But in the end the council have made it a paramount issue 
to have a public defender. So we fund it out of our general 
funds from our casino revenue, our lease income, or any other 
of our other means that we generate out of our profits, in this 
case oil and gas probably. But we keep that as a law-trained 
public defender.
    Our judge is elected. He is elected just as we are as 
council members, and then we appoint him for 2 years term, and 
he has got to make his performance, or in the even years, as 
this year coming up 2010, he has got to run for reelection. So 
it is a kind of a fair process today in Fort Berthold.
    The problem we have is we are getting probably more work 
than there is so we have few and far between people applying 
for these jobs because there is work to be had. So we do the 
best we can with the limited applications.
    Mr. Rooney. Does anybody else want to weigh in on that 
question?
    Ms. Creel. Thank you, Mr. Rooney.
    When Chairman Levings was talking about 638 contracting for 
law enforcement, that is Public Law 638, which allows the 
tribes to apply to the Federal Government for funding and then 
contract and determine how to use those funds in a on-the-
ground, culturally sensitive way. So funding a public defender 
system is no different than any of the other services that flow 
through the Federal trust responsibility through the Bureau of 
Indian Affairs and on down.
    Traditional justice systems would not be affected by the 
right to counsel. The right to counsel obviously implies a 
tribal court system in which you have a law-trained judge and a 
prosecutor. That would--and the chance of imprisonment or 
incarceration. That would trigger, then, the right to counsel.
    If tribes are choosing a traditional form of justice--in my 
home there are no advocates or attorneys allowed in the court 
system at all. There is a traditional and then a contemporary.
    If the contemporary court is going to imprison someone, 
though, there should be a right to counsel, which would be 
separate form the traditional court which is held in 
traditional language and only those members who speak the 
language and are subject to our tribal spiritual leaders 
attend. So that wouldn't be impacted at all.
    Ms. Indritz. Mr. Rooney, the vast majority of Native 
American defendants who appear in tribal courts are indigent 
and are unable to afford counsel. There are some Federal funds 
now that could be used for public defenders but the problem is 
they are not earmarked solely for public defenders.
    And so many tribes have so many needs in their court 
system, whether it is for computers, or judges, or whatever, 
that there are funds that the Department of Justice has 
sometimes awarded if the tribe wants to use--to ask for public 
defenders--that is not precluded--but there are no funds 
earmarked now solely for public defenders. And so we would ask 
that there be that, that there be funds which are available to 
tribes for public defense.
    And it could work something like the Criminal Justice Act, 
where there are a variety of ways of providing that, whether it 
is a public defender office such as Chairman Levings spoke of, 
or appointing counsel on an individual basis paid on an hourly 
rate, or a private legal aid organization that also takes on 
these kind of cases. So there are different ways to do it but 
there is no earmarked funding just for this public defender 
function.
    Mr. Rooney. Mr. Chairman, I see my time is expired. If I 
could take the liberty of just one more--just a follow up to 
that with a simple yes or no.
    So H.R. 1924--does it or does it not have the requirement 
for the tribe--for counsel for these defendants?
    No.
    Ms. Indritz. No.
    Mr. Rooney. Okay.
    Ms. Indritz. The Senate version has better language on 
that. Neither bill has funding.
    Mr. Rooney. Okay.
    Thank you, Mr. Chairman. I yield back.
    Mr. Scott. Thank you.
    And I would like to thank all of our witnesses for their 
testimony today. Without objection written testimony submitted 
by Amnesty International USA and the Judicial Conference of the 
United States will be placed in the record.
    Members will have--may have additional questions for the 
witnesses, and if so we will forward those questions to you and 
ask that the answers be available as promptly as possible so 
that the answers will be part of the record.
    Each witness's written statement will be entered into the 
record in its entirety. Without objection the hearing record 
will remain open for 1 week for submission of additional 
materials.
    And there is one other piece of business we would like to 
do at this time, and that is to congratulate our counsel, Karen 
Wilkinson, who has been with us for almost 2 years. She is on 
leave from the public defender's office in Arizona and will--
unfortunately they need her back.
    We want to thank you for almost 2 years of excellent 
contribution to the Committee work.
    [Applause.]
    Without objection the Subcommittee stands adjourned.
    [Whereupon, at 11:39 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
